<html>
<title> - TIBET</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




 
                                 TIBET

=======================================================================

                               REPRINTED

                                from the

                           2008 ANNUAL REPORT

                                 of the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                            OCTOBER 31, 2008

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov



                   U.S. GOVERNMENT PRINTING OFFICE
46-039                     WASHINGTON : 2009
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free(866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001








              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS



House                                 Senate

SANDER LEVIN, Michigan, Chairman    BYRON DORGAN, North Dakota, Co-Chairman
MARCY KAPTUR, Ohio                  MAX BAUCUS, Montana
TOM UDALL, New Mexico               CARL LEVIN, Michigan
MICHAEL M. HONDA, California        DIANNE FEINSTEIN, California
TIMOTHY J. WALZ, Minnesota          SHERROD BROWN, Ohio
CHRISTOPHER H. SMITH, New Jersey    CHUCK HAGEL, Nebraska
EDWARD R. ROYCE, California         SAM BROWNBACK, Kansas
DONALD A. MANZULLO, Illinois        GORDON H. SMITH, Oregon
JOSEPH R. PITTS, Pennsylvania        MEL MARTINEZ, Florida

                     EXECUTIVE BRANCH COMMISSIONERS

                 PAULA DOBRIANSKY, Department of State
                CHRISTOPHER R. HILL, Department of State
                 HOWARD M. RADZELY, Department of Labor
              CHRISTOPHER PADILLA, Department of Commerce
                   DAVID KRAMER, Department of State

                      Douglas Grob, Staff Director

             Charlotte Oldham-Moore, Deputy Staff Director






                                 Tibet

                                Findings

        <bullet>  As a result of the Chinese government 
        crackdown on Tibetan communities, monasteries, 
        nunneries, schools, and workplaces following the wave 
        of Tibetan protests that began on March 10, 2008, 
        Chinese government repression of Tibetans' freedoms of 
        speech, religion, and association has increased to what 
        may be the highest level since approximately 1983, when 
        Tibetans were able to set about reviving Tibetan 
        Buddhist monasteries and nunneries.
        <bullet>  The status of the China-Dalai Lama dialogue 
        deteriorated after the March 2008 protests and may 
        require remedial measures before the dialogue can 
        resume focus on its principal objective--resolving the 
        Tibet issue. China's leadership blamed the Dalai Lama 
        and ``the Dalai Clique'' for the Tibetan protests and 
        rioting, and did not acknowledge the role of rising 
        Tibetan frustration with Chinese policies that deprive 
        Tibetans of rights and freedoms nominally protected 
        under China's Constitution and legal system. The Party 
        hardened policy toward the Dalai Lama, increased 
        attacks on the Dalai Lama's legitimacy as a religious 
        leader, and asserted that he is a criminal bent on 
        splitting China.
        <bullet>  State repression of Tibetan Buddhism has 
        reached its highest level since the Commission began to 
        report on religious freedom for Tibetan Buddhists in 
        2002. Chinese government and Party policy toward 
        Tibetan Buddhists' practice of their religion played a 
        central role in stoking frustration that resulted in 
        the cascade of Tibetan protests that began on March 10, 
        2008. Reports have identified hundreds of Tibetan 
        Buddhist monks and nuns whom security officials 
        detained for participating in the protests, as well as 
        members of Tibetan secular society who supported them.
        <bullet>  Chinese government interference with the 
        norms of Tibetan Buddhism and unrelenting antagonism 
        toward the Dalai Lama, one of the religion's foremost 
        teachers, serves to deepen division and distrust 
        between Tibetan Buddhists and the government and 
        Communist Party. The government seeks to use legal 
        measures to remold Tibetan Buddhism to suit the state. 
        Authorities in one Tibetan autonomous prefecture have 
        announced unprecedented measures that seek to punish 
        monks, nuns, religious teachers, and monastic officials 
        accused of involvement in political protests in the 
        prefecture.
        <bullet>  The Chinese government undermines the 
        prospects for stability in the Tibetan autonomous areas 
        of China by implementing economic development and 
        educational policy in a manner that results in 
        disadvantages for Tibetans. Weak implementation of the 
        Regional Ethnic Autonomy Law has been a principal 
        factor exacerbating Tibetan frustration by preventing 
        Tibetans from using lawful means to protect their 
        culture, language, and religion.
        <bullet>  At no time since Tibetans resumed political 
        activism in 1987 has the magnitude and severity of 
        consequences to Tibetans (named and unnamed) who 
        protested against the Chinese government been as great 
        as it is now upon the release of the Commission's 2008 
        Annual Report. Unless Chinese authorities have released 
        without charge a very high proportion of the Tibetans 
        reportedly detained as a result of peaceful activity or 
        expression on or after March 10, 2008, the resulting 
        surge in the number of Tibetan political prisoners may 
        prove to be the largest increase in such prisoners that 
        has occurred under China's current Constitution and 
        Criminal Law.

                            Recommendations

        Members of the U.S. Congress and Administration 
        officials are encouraged to:

        <all> Convey to the Chinese government the heightened 
        importance and urgency of moving beyond the setback in 
        dialogue with the Dalai Lama or his representatives 
        following the March 2008 protests. A Chinese government 
        decision to engage the Dalai Lama in substantive 
        dialogue can result in a durable and mutually 
        beneficial outcome for Chinese and Tibetans, and 
        improve the outlook for local and regional security in 
        the coming decades.
        <all> Convey to the Chinese government, in light of the 
        tragic consequences of the Tibetan protests and the 
        continuing tension in Tibetan Buddhist institutions 
        across the Tibetan plateau, the urgent importance of: 
        reducing the level of state antagonism toward the Dalai 
        Lama; ceasing aggressive campaigns of ``patriotic 
        education'' that can result in further stress to local 
        stability; respecting Tibetan Buddhists' right to 
        freedom of religion, including to identify and educate 
        religious teachers in a manner consistent with their 
        preferences and traditions; and using state powers such 
        as passing laws and issuing regulations to protect the 
        religious freedom of Tibetans instead of 
        remolding Tibetan Buddhism to suit the state.
        <all> Continue to urge the Chinese government to allow 
        international observers to visit Gedun Choekyi Nyima, 
        the Panchen Lama whom the Dalai Lama recognized, and 
        his parents.
        <all> In light of the heightened pressure on Tibetans 
        and their communities following the March protests, 
        increase funding for U.S. non-governmental 
        organizations to develop programs that can assist 
        Tibetans to increase their capacity to peacefully 
        protect and develop their culture, language, and 
        heritage; that can help to improve education, economic, 
        and health conditions of ethnic Tibetans living in 
        Tibetan areas of China; and that create sustainable 
        benefits without encouraging an influx of non-Tibetans 
        into these areas.
        <all> Convey to the Chinese government the importance 
        of distinguishing between peaceful Tibetan protesters 
        and rioters, honoring the Chinese Constitution's 
        reference to the freedoms of speech and association, 
        and not treating peaceful protest as a crime. Request 
        that the Chinese government provide details about 
        Tibetans detained or charged with protest-related 
        crimes, including: each person's name; the charges (if 
        any) against each person; the name and location of the 
        prosecuting office (``procuratorate'') and court 
        handling each case; the availability of legal counsel 
        to each defendant; and the name of each facility where 
        such persons are detained or imprisoned. Request that 
        Chinese authorities allow access by diplomats and other 
        international observers to the trials of such persons.
        <all> Continue to raise in meetings and correspondence 
        with 
        Chinese officials the cases of Tibetans who are 
        imprisoned as punishment for the peaceful exercise of 
        human rights. Representative examples include: former 
        Tibetan monk Jigme Gyatso (now serving an extended 18-
        year sentence for printing leaflets, distributing 
        posters, and later shouting pro-Dalai Lama slogans in 
        prison); monk Choeying Khedrub (sentenced to life 
        imprisonment for printing leaflets); reincarnated lama 
        Bangri Chogtrul (serving a sentence of 18 years 
        commuted from life imprisonment for ``inciting 
        splittism''); and nomad Ronggyal Adrag (sentenced to 8 
        years' imprisonment for shouting political slogans at a 
        public festival).
        <all> The United States should continue to seek a 
        consulate in Lhasa in order to provide services to 
        Americans in Western China. With the closest consulate 
        in Chengdu, a 1,500 mile bus ride from the Tibetan 
        capital of Lhasa, American travelers are largely 
        without assistance in Western China. This was recently 
        underscored during unrest in Lhasa when U.S. citizens 
        could not get out and American diplomats could not 
        enter the Tibetan Autonomous Region.


        introduction: tibetan protests on an unprecedented scale


    The Tibet section of the 2008 Annual Report focuses on the 
unprecedented cascade of Tibetan protests that began in Lhasa 
on March 10, 2008,\1\ and by the end of March had swept across 
much of the ethnic Tibetan areas of China.\2\ No peacetime 
Chinese government\3\ has been confronted by expressions of 
Tibetan discontent as widely dispersed and sustained since the 
Chinese Communist Party established the People's Republic of 
China in 1949. Two key factors distinguish the current protests 
from the March 10, 1959, Lhasa uprising that followed the Dalai 
Lama's escape from Tibet, and the March 5-7, 1989, protests and 
rioting that led to the imposition of martial law in Lhasa. 
First, the 2008 protests spread far beyond Lhasa and the Tibet 
Autonomous Region (TAR). Second, protests continued to occur 
even after Chinese security forces established and maintained 
lockdowns.
    As a result of the Chinese government crackdown beginning 
in March 2008 on Tibetan communities, monasteries, nunneries, 
schools, and workplaces, the repression of the freedoms of 
speech, religion, and association has increased to what may be 
the highest level since approximately 1983, when Tibetans were 
able to set about reviving Tibetan Buddhist monasteries and 
nunneries.\4\ The Commission has reported since releasing its 
first Annual Report in 2002 on underlying human rights issues 
that played important roles in the 2008 Tibetan protests.\5\ 
The Commission's 2007 Annual Report observed that then-
declining numbers of political detentions of monks and nuns 
showed that state repression of Tibetan Buddhism may have 
resulted in a more subdued monastic community--and that such a 
decline concurrent with a high level of monastic resentment 
against Chinese policies suggested that the potential for 
resurgent political protest exists.
    Tibetan protesters resorted to rioting in a total of 12 
county-level areas, according to official Chinese media 
reports,\6\ but Tibetan protests (generally peaceful) took 
place in more than 40 additional county-level areas.\7\ China's 
state-run media generally reported only the protests during 
which some Tibetans turned to violence, and characterized all 
of the participants linked to such events as ``rioters.'' 
Rioting took place in Lhasa city on March 14,\8\ in Aba (Ngaba) 
county, Aba Tibetan and Qiang Autonomous Prefecture, Sichuan 
province, on March 16,\9\ and in six counties in Gannan 
(Kanlho) Tibetan Autonomous Prefecture, Gansu province, from 
March 14-19.\10\ International media and non-governmental 
organization reports noted that Tibetans attacked ethnic Han 
and Hui individuals and businesses.\11\ The Lhasa rioting 
resulted in substantial property damage and at least 19 deaths, 
according to official reports; the actual death toll could be 
much higher (see Consequences of the Protests: Death, 
Detention, Patriotic Education, Isolation in this section).\12\ 
[See figure titled Map of Tibetan Protest Sites, County-level 
Areas below and Addendum: List of Tibetan Protest Sites, 
County-level Areas at the end of this section.]
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Peaceful Tibetan protesters called for Tibetan 
independence, the Dalai Lama's return to Tibet,\13\ the release 
of the Panchen Lama,\14\ and freedom of religion generally.\15\ 
Many, but not all, of the protests began at Tibetan Buddhist 
monasteries and nunneries,\16\ the institutions impacted most 
negatively by Chinese government regulation of Tibetan Buddhism 
and Party policy toward the Dalai Lama, whom most Tibetan 
Buddhists regard as their spiritual leader.\17\ Monastic 
protests gained support from members of Tibetan secular 
society.\18\ The large scale of Tibetan participation in the 
protests--at substantial peril to the protesters--reflects the 
urgency of the underlying issues and the imperative for Chinese 
authorities and Tibetans to work together to resolve them.

          TIBETAN FRUSTRATION: FACTORS UNDERLYING THE PROTESTS

    China's leadership blamed the Dalai Lama and ``the Dalai 
Clique'' for the Tibetan protests and rioting in the run-up to 
the 2008 Beijing Summer Olympic Games,\19\ and did not 
acknowledge the role of rising Tibetan frustration with Chinese 
policies toward Tibetans. A senior TAR Party official used 
language that attributed directly to the Dalai Lama violent 
activity during rioting such as ``beating, smashing, looting, 
and burning.'' \20\
    Chinese government policies that deprive Tibetans of rights 
and freedoms nominally protected under China's Constitution and 
legal system have been the root cause of the protests and 
riots. Party control over China's legislative, governmental, 
and policymaking process, as well as contradictory provisions 
in Chinese laws and regulations, support the government's 
unrestricted ability to implement unpopular programs among 
Tibetans. Heightened state interference with Tibetan Buddhist 
norms since 2005 has left the 
religion especially hard-hit.\21\ [See Heightened Repression of 
Tibetan Buddhism in this section.] The unproductive dialogue 
between Chinese officials and the Dalai Lama's representatives, 
along with the lurid invective of the Party's anti-Dalai 
campaign, frustrate Tibetan hopes for improved relations with 
the Chinese government, and strike at Tibetan sensibilities.

                      Policy Toward the Dalai Lama

    The Party hardened policy toward the Dalai Lama in the wake 
of the Tibetan protests, increasing attacks on the Dalai Lama's 
legitimacy as a religious leader, and asserting that he is a 
criminal bent on splitting China.\22\ ``Even the Lord Buddha 
will definitely not tolerate this honey-mouthed and dagger-
hearted Dalai Lama, the scum of Buddhism, an insane ruffian and 
a beast in a human shape!'' said the Party-run Tibet Daily.\23\ 
Tibet Autonomous Region Party Secretary Zhang Qingli likened 
the Dalai Lama to ``a jackal and wolf cloaked in a [monk's 
robe]'' and called for a ``people's war'' against threats to 
stability and unity that he blamed on ``the Dalai Clique.'' 
\24\ Officials launched aggressive reimplementation of 
political indoctrination campaigns\25\ across the Tibetan 
autonomous areas of China, and sought to compel Tibetans to 
denounce the Dalai Lama\26\ and sometimes to state that he was 
responsible for the protest and riot activity.\27\
    Chinese government officials have intensified their 
campaign to discredit the Dalai Lama by holding him directly 
responsible for Tibetan violence committed during rioting, and 
seeking to tie him to allegations of Tibetan ``terrorist'' 
objectives and activity. A Ministry of Public Security (MPS) 
spokesman claimed on April 1,\28\ but provided no credible 
evidence to prove, that the Dalai Lama is responsible for the 
objectives and activities of two Tibetan NGOs based in India--
the Tibetan Youth Congress (TYC) and the Tibetan People's 
Uprising Movement (TPUM). TPUM\29\ and the TYC,\30\ according 
to their Web sites, seek Tibetan independence, thereby 
rejecting the Dalai Lama's autonomy-based Middle Way 
Approach.\31\ TPUM's ``Declaration'' states, ``The Tibetan 
People's Uprising Movement is a global movement of Tibetans 
inside and outside of Tibet taking control of our political 
destiny by engaging in direct action to end China's illegal and 
brutal occupation of our country. Through unified and strategic 
campaigns we will seize the Olympic spotlight and shine it on 
China's shameful repression inside Tibet, thereby denying China 
the international acceptance and approval it so fervently 
desires.'' \32\
    The MPS claimed, but did not substantiate, that the TYC and 
other unnamed groups provided two classes on how to carry out 
terrorist activities.\33\ According to China's state-run media, 
after monks in the eastern TAR allegedly carried out a series 
of small bombings in April, the alleged bombers confessed 
that--by listening to radio broadcasts--they ``were following 
separatist propaganda from the Dalai Lama.'' \34\ A Chinese 
security official told a Western media organization in October 
that on September 23, 2008, the Changdu (Chamdo) Intermediate 
People's Court sentenced several of the monks to terms of 
imprisonment for ``terrorist actions.'' \35\ According to an 
international media agency report, in December 2005 then-TYC 
President Kalsang Phuntsok said: ``[We] have a youth section 
which is not so much influenced by the Buddhist philosophy. 
They are very much attracted by the movements which are going 
on all over the world, mostly violence-infested movements, and 
people see they are achieving results. They look around 
everywhere, whether it's Israel or Palestine or the Middle 
East--these give them every reason to believe in every 
[violent] movement that is being waged on this Earth.'' \36\ 
According to a Tibetan media report, former TYC President 
Lhasang Tsering told about 200 young Tibetans gathered at a 
public forum in India in February 2007 that the 2008 Beijing 
Olympics provide ``an amazing opportunity as we can fight them 
when they would be most needed to be `well-behaved.' '' He told 
the audience, ``For a committed activist you don't need CIA's 
support to cut a telephone line in Beijing or throw an iron rod 
on the power cables in Shanghai. These kinds of sabotages can 
be done by any ordinary person, and can weaken the power from 
inside. Sometimes the whole city goes dark by one simple but 
technically correct act.'' \37\
    The Dalai Lama, however, has expressed no support for the 
political objectives or methods of TPUM or the TYC, and has 
maintained his consistently pacifist counsel to Tibetans--
wherever they live. In an April 6 statement, the Dalai Lama 
appealed to Tibetans to ``practice non-violence and not waver 
from this path, however serious the situation might be.'' He 
urged Tibetans living in exile to ``not engage in any action 
that could be even remotely interpreted as violent.'' \38\ He 
continued to reiterate his explicit support for China's role as 
the Olympics host throughout the period of the protests and 
their aftermath.\39\

  Status of Negotiations Between the Chinese Government and the Dalai 
                      Lama or His Representatives

    U.S. government policy recognizes the Tibet Autonomous 
Region (TAR) and Tibetan autonomous prefectures and counties in 
other provinces to be a part of China.\40\ The U.S. State 
Department's 2008 Report on Tibet Negotiations observed that 
the Dalai Lama ``represents the views of the vast majority of 
Tibetans and his moral and spiritual authority helps to unite 
the Tibetan community inside and outside of China.'' President 
George W. Bush met in September 2007 with President Hu Jintao 
at the Asia Pacific Economic Cooperation Forum in Sydney, 
Australia, and told Hu that if Chinese leaders ``were to sit 
down with the Dalai Lama they would find him a man of peace and 
reconciliation.'' \41\ The Report on Tibet Negotiations stated:

        The United States encourages China and the Dalai Lama 
        to hold direct and substantive discussions aimed at 
        resolution of differences at an early date, without 
        preconditions. The Administration believes that 
        dialogue between China and the Dalai Lama or his 
        representatives will alleviate tensions in Tibetan 
        areas and contribute to the overall stability of 
        China.\42\

    The U.S. Congress awarded the Congressional Gold Medal to 
the Dalai Lama on October 17, 2007.\43\ The congressional act 
providing for the award found that the Dalai Lama ``is the 
unrivaled spiritual and cultural leader of the Tibetan people, 
and has used his leadership to promote democracy, freedom, and 
peace for the Tibetan people through a negotiated settlement of 
the Tibet issue, based on 
autonomy within the People's Republic of China.'' \44\
    The status of the China-Dalai Lama dialogue, which resumed 
in 2002,\45\ deteriorated after the March 2008 protests from a 
condition characterized by the absence of evident progress, to 
one that may require remedial measures before the dialogue can 
resume focus on its principal objective--resolving the Tibet 
issue. The Chinese government and the Dalai Lama continue to 
maintain their fundamental positions toward the dialogue. [See 
CECC 2007 Annual 
Report, Section IV--Tibet: Special Focus for 2007, for 
additional information.]
    The Dalai Lama's Special Envoy Lodi Gyari and Envoy Kelsang 
Gyaltsen met on May 4, 2008, in Shenzhen city, Guangdong 
province, for an ``informal meeting'' \46\ with Communist Party 
United Front Work Department (UFWD) Executive Deputy Head Zhu 
Weiqun and Deputy Head Sita (Sithar).\47\ The purpose of the 
meeting, Gyari said on May 8, was to discuss the ``critical 
situation in Tibet'' and to reach a decision to continue formal 
discussions.\48\ The envoys called on Chinese authorities to 
release prisoners (Tibetan protesters), allow injured persons 
(protesters) to receive adequate medical treatment, and allow 
``unfettered access'' to Tibetan areas by tourists and media 
organizations.\49\ The Dalai Lama included similar points in an 
April 6 statement that he addressed to Tibetans worldwide\50\ 
and reiterated them as his priorities in a May 25 interview 
with a Western newspaper.\51\ President Hu Jintao said on May 
7, soon after the Shenzhen meeting, ``We hope that the Dalai 
Lama side take[s] concrete actions to show its sincerity by 
earnestly stopping activities involving splitting the 
motherland, instigating violence and disrupting the Beijing 
Olympics so as to create conditions for next consultation.'' 
\52\
    On July 1 and 2, 2008, the Dalai Lama's envoys met in 
Beijing with UFWD officials, including UFWD Head Du Qinglin, 
for the seventh round of formal dialogue.\53\ The Chinese team 
presented the envoys a set of new preconditions (the ``four no 
supports'')\54\ that intensify the Chinese government and Party 
campaign to hold the Dalai Lama personally accountable for 
Tibetan views and activities that he does not support and that 
contradict his policies and guidance.\55\ A UFWD spokesman 
described the four types of activity that the Dalai Lama must 
not support as: (1) attempting to disrupt the 2008 Beijing 
Summer Olympic Games; (2) inciting violence (during Tibetan 
protests); (3) alleged ``terrorist activities'' by a Tibetan 
NGO; and (4) seeking Tibetan independence.\56\ Du Qinglin 
demanded that the Dalai Lama ``should openly and explicitly 
promise'' to fulfill the requirements of the ``four no 
supports'' and ``prove it in his actions.'' \57\ The demands 
pressure the Dalai Lama to serve as an active proponent of 
Chinese government political objectives as a precondition to 
continuing a dialogue that seeks to resolve political issues, 
and to take action to alter the political positions and 
activities of Tibetans within China and internationally.\58\
    After the Beijing talks, Chinese officials and the Dalai 
Lama's envoys both stated that continuing the dialogue is in 
jeopardy and depends on measures that the other side should 
undertake. A UFWD official said that if ``the Dalai side'' 
could not ``materialize'' the ``four no supports,'' then 
``there would hardly be the atmosphere and conditions required 
for the contacts and discussions between the two sides.'' \59\ 
Special Envoy Lodi Gyari said that the Tibetan delegation had 
been ``compelled to candidly convey to our counterparts that in 
the absence of serious and sincere commitment on their part the 
continuation of the present dialogue process would serve no 
purpose.'' \60\

               Heightened Repression of Tibetan Buddhism

    State repression of Tibetan Buddhism in 2008 has reached 
the highest level since the Commission began to report on 
religious freedom for Tibetan Buddhists in 2002. Chinese 
government and Party policy toward Tibetan Buddhists' practice 
of their religion played a central role in stoking frustration 
that resulted in the cascade of Tibetan protests that started 
on March 10, 2008, when approximately 300 Drepung Monastery 
monks attempted a protest march in Lhasa.\61\ The protests 
spread quickly across the Tibetan plateau and involved a large 
but undetermined number of Tibetan Buddhist monastic 
institutions and thousands of monks and nuns.\62\ [See figure 
titled Map of Tibetan Protest Sites, County-level Areas above 
and Addendum: List of Tibetan Protest Sites, County-level Areas 
at the end of this section.]
    Reports have identified hundreds of Tibetan Buddhist monks 
and nuns whom security officials detained for participating in 
the protests,\63\ as well as members of Tibetan secular society 
who supported them. Peaceful protesters raised Tibetan Buddhist 
issues by calling for the return of the Dalai Lama,\64\ the 
release of the Panchen Lama (Gedun Choekyi Nyima),\65\ and 
freedom of religion generally.\66\ [See box titled The Panchen 
Lama and the Golden Urn: China's Model for Selecting the Next 
Dalai Lama.] Details about the detainees' well-being and status 
under the Chinese legal system are few. Armed security forces 
maintained heightened security at some monasteries and 
nunneries after the protests as authorities conducted 
aggressive campaigns of patriotic education (``love the 
country, love religion'').\67\ Demands that monks and nuns sign 
statements denouncing the Dalai Lama angered monks and nuns and 
prompted a second wave of protests and detentions.\68\

------------------------------------------------------------------------
  The Panchen Lama and the Golden Urn:  China's Model for Selecting the
                             Next Dalai Lama
-------------------------------------------------------------------------
  Gedun Choekyi Nyima, the boy the Dalai Lama recognized as the Panchen
 Lama in May 1995, turned 19 years old in April 2008. Chinese
 authorities have held him and his parents incommunicado in an unknown
 location since May 17, 1995,\69\ three days after the Dalai Lama
 announced his recognition of Gedun Choekyi Nyima.\70\ The Chinese
 government told the UN Special Rapporteur on Freedom of Religion in
 September 2005 that Gedun Choekyi Nyima is leading a ``normal, happy
 life and receiving a good cultural education.'' \71\ A TAR official
 described Gedun Choekyi Nyima in July 2007 as a ``patriotic'' boy who
 is ``living a normal life in Tibet'' and ``studying at a senior high
 school'' and ``does not want his life to be disturbed.'' \72\ The
 Chinese government has provided no information to support the statement
 that Gedun Choekyi Nyima is in the TAR or any other Tibetan area of
 China.
  The State Council declared the Dalai Lama's 1995 announcement
 ``illegal and invalid'' \73\ and installed Gyaltsen Norbu, whose
 appointment continues to stir widespread resentment among Tibetans--
 evidenced by Tibetan protesters' calls in March 2008 for Chinese
 authorities to ``release'' Gedun Choekyi Nyima.\74\ Party officials
 assert that the next Dalai Lama will be selected in the same manner as
 Gyaltsen Norbu: by drawing a name from a golden urn. Ye Xiaowen,
 Director of the State Administration for Religious Affairs (SARA), and
 an alternate member of the Communist Party Central Committee,\75\ said
 in an interview published on March 13, 2008, that SARA would ``take
 control'' of identifying the next Dalai Lama using ``historical
 conventions.'' One of those conventions would be drawing a lot from an
 urn containing the names of three government-approved candidates to be
 the ``soul boy'' (reincarnated lama).\76\
  Ye's reference to ``historical conventions'' refers to a 1792 Qing
 Dynasty edict demanding that the Tibetan government in Lhasa reform
 religious, administrative, economic, and military practices to suit the
 Qing court.\77\ The first of the edict's 29 articles directed that the
 Dalai Lama and Panchen Lama be selected by drawing lots from a golden
 urn, and that a high-ranking imperial official must be present to
 confirm the result.\78\
------------------------------------------------------------------------

      THE NORM FOR TIBETAN BUDDHISM: SYSTEMATIC STATE INTERFERENCE

    Chinese government interference with the norms of Tibetan 
Buddhism and unrelenting antagonism toward the Dalai Lama, one 
of the religion's foremost teachers, serves to deepen division 
and 
distrust between Tibetan Buddhists and the government and 
Communist Party. As the Commission's 2007 Annual Report 
documented, law, regulation, and policy that seek to prevent or 
punish Tibetan Buddhist devotion to the Dalai Lama, categorize 
him as a ``splittist'' (a criminal under Chinese law\79\), and 
that set aside centuries of religious tradition\80\ create 
obstacles of profound implications for Tibetan Buddhists.\81\ 
Legal and regulatory interference with Tibetan Buddhism 
antagonizes Tibetans in general, but it is especially harmful 
to Tibetans who regard the Dalai Lama (in his capacity as the 
spiritual leader of the Gelug tradition of Tibetan 
Buddhism\82\) as their guide on what Buddhists believe is the 
path toward enlightenment.
    The function and legitimacy of Tibetan Buddhism--the core 
of Tibetan culture--has been especially hard-hit since 2005. 
Legal measures closely regulating monastic life in the TAR took 
effect in January 2007.\83\ Nationwide measures establishing 
state supervision of the centuries-old Tibetan tradition of 
identifying, seating, and educating boys whom Tibetans believe 
are reincarnations of Buddhist teachers took effect in 
September 2007.\84\ The government seeks to use such legal 
measures to remold Tibetan Buddhism to suit the state, and to 
use legal pressure to compel Tibetan acceptance of such 
measures. For example, a February 2008 Tibet Daily report 
provided information about conditions in TAR monasteries and 
nunneries less than one month before the protests erupted.\85\ 
The TAR procuratorate reported that it had ``targeted monks and 
nuns'' with campaigns on ```love the country and love religion' 
thinking'' (patriotic education), and implemented measures 
linked to the government and Party's ``integrated management of 
the temples.'' \86\

      THE GANZI MEASURES: PUNISHING ``MONK AND NUN TROUBLEMAKERS''

    The government of Ganzi (Kardze) Tibetan Autonomous 
Prefecture (TAP), Sichuan province, issued on June 28, 2008, 
with immediate effect, unprecedented measures that seek to 
punish or eliminate from the prefecture's Tibetan Buddhist 
institution those monks, nuns, religious teachers, and monastic 
officials whom public security officials accuse of involvement 
in political protests in the prefecture.\87\ Of 125 documented 
Tibetan protests across the Tibetan plateau from March 10 to 
June 22, at least 44 took place in Ganzi TAP according to an 
August 5 advocacy group report.\88\ Protesters at 40 of the 44 
documented protests included Tibetan monks or nuns.\89\ Nearly 
38,000 Tibetan Buddhist monks and nuns were residents of 515 
monasteries and nunneries in Ganzi TAP as of 2005, according to 
the Sichuan Daily.\90\ Ganzi TAP has been the site of more 
known political detentions of Tibetans by Chinese authorities 
than any other TAP outside the TAR since the current period of 
Tibetan political activism began in 1987,\91\ based on data 
available in the Commission's Political Prisoner Database 
(PPD).\92\
    The ``Measures for Dealing Strictly With Rebellious 
Monasteries and Individual Monks and Nuns'' (the Ganzi 
Measures) took effect on the date they were issued and punish 
speech and association, not violent activity:

        In order to defend social stability, socialist law and 
        the basic interests of the people, the measures listed 
        below have been resolutely drafted for dealing clearly 
        with participants in illegal activities aimed at 
        inciting the division of nationalities, such as 
        shouting reactionary slogans, distributing reactionary 
        writings, flying and popularizing the ``snow lion 
        flag'' and holding illegal demonstrations.\93\

    The Ganzi Measures appear to apply some punishments that 
may be without precedent in post-Mao Zedong China and that, 
based on Commission staff analysis, do not appear to have a 
clear basis in national legal measures that establish central 
government regulatory power over religious activity in China. 
Such measures include the 2004 Regulation on Religious 
Affairs\94\ and the 2007 Management Measures for the 
Reincarnation of Living Buddhas in Tibetan Buddhism.\95\ For 
example, punishments in some cases can include the partial 
destruction or closure of a monastery or nunnery.\96\ In other 
cases, authorities may punish a trulku (a teacher that Tibetan 
Buddhists believe is a reincarnation) by stripping the trulku 
of his religious position and function.\97\ [See Addendum: The 
June 2008 Ganzi Measures: Dealing Strictly With Troublemaking 
Monks, Nuns, and Monasteries.]

            Weak Implementation of Regional Ethnic Autonomy

    Tibetan protesters, in their widespread calls for Tibetan 
independence, provided an unprecedented de facto referendum 
rejecting China's implementation of its constitutionally 
enshrined regional ethnic autonomy system.\98\ The Regional 
Ethnic Autonomy Law\99\ (REAL) is the state's principal legal 
instrument for managing the affairs of ethnic minorities. Its 
weak implementation has prevented Tibetans from using lawful 
means to protect their culture, language, and religion. This 
has exacerbated Tibetan frustration. The Chinese leadership's 
refusal to recognize the REAL's failure to fulfill the law's 
premise that it guarantees ethnic minorities the ``right to 
administer their internal affairs'' could expose the leadership 
to further increases in Tibetan resentment, continued calls for 
Tibetan independence, and the risk of local instability. [See 
box titled Impediments to Regional Ethnic Autonomy: Conflicts 
Within and Between Laws below.]

------------------------------------------------------------------------
 Impediments to Regional Ethnic Autonomy:  Conflicts Within and Between
                                  Laws
-------------------------------------------------------------------------
The Premise of Autonomy

  The REAL's Preamble asserts that the regional ethnic autonomy  system
 ``reflects the state's full respect for and guarantee of ethnic
 minorities' right to administer their internal affairs,'' and ``has
 played an enormous role in giving full play to ethnic minorities'
 enthusiasm for being masters over their own affairs.'' \100\
Conflicts That Impede Autonomy

<bullet> Article 3 obligates ethnic autonomous governments to apply the
 decisions of higher-level authorities under ``the principle of
 democratic centralism''--a system that is more consultative than
 democratic. A Chinese government White Paper said that democratic
 centralism ``requires that the majority be respected while the minority
 is protected.'' \101\
<bullet> Article 7 sets aside ethnic minority rights to ``administer
 their internal affairs'' by subordinating ethnic autonomous governments
 to every higher level of government authority.\102\
------------------------------------------------------------------------


------------------------------------------------------------------------
 Impediments to Regional Ethnic Autonomy:  Conflicts Within and Between
                             Laws--Continued
-------------------------------------------------------------------------
<bullet> Article 12 provides a basis for establishing boundaries of
 ethnic autonomous areas that can reflect factors such as ``historical
 background'' and ``the relationship among the various nationalities''--
 but it is Beijing's view of history and ethnic relations that
 determines whether the REAL unites--or divides--territory where ethnic
 minority groups live.\103\
<bullet> Article 19 (and Constitution Article 116) provide ethnic
 autonomous congresses the power to enact autonomy or self-governing
 regulations ``in the light of the political, economic, and cultural
 characteristics'' of the relevant ethnic group(s)\104\--but China's
 Legislation Law intrudes upon the right of ethnic minority people's
 congresses to issue such regulations.\105\
<bullet> Article 20 provides ethnic autonomous governments the right to
 apply to a higher-level state agency to alter or cancel the
 implementation of a ``resolution, decision, order, or instruction'' if
 it does not ``suit the actual conditions in an ethnic autonomous area''
 \106\--but the Legislation Law bars ethnic autonomous governments from
 enacting any variance to the laws and regulations that matter the most:
 those that are ``dedicated to matters concerning ethnic autonomous
 areas.'' \107\
------------------------------------------------------------------------

     Economic Development vs. Ethnic Minorities' Autonomous Rights

    The Chinese government undermines the prospects for 
stability in Tibetan autonomous areas of China by implementing 
economic development and educational policy in a manner that 
results in disadvantages for Tibetans. In a November 2007 
academic thesis, Dr. Andrew Fischer analyzed the relationship 
in Tibetan areas of China between ``economic polarisation, 
social exclusion, and social conflict.'' \108\ ``The 
exclusionary experiences of Tibetans in different tiers of the 
labor market are interlinked through polarisation,'' he said, 
``and operate along educational or cultural axes of 
disadvantage''--with the result that ``class grievances mutate 
into cross-class collective grievances.'' \109\ The relevance 
of the point is evident in the social and professional range of 
Tibetan protesters who were not monks and nuns: business 
operators, workers, university graduates, junior high school 
students, farmers, and nomads.
    The Chinese government facilitates resentment among non-
monastic Tibetans against the increasing Han dominance in 
economic and cultural spheres principally by failing to empower 
local Tibetan autonomous governments to protect Tibetan 
interests. Among the consequences are the decline of the 
use\110\ and teaching\111\ of Tibetan language, and educational 
and training programs that leave Tibetans poorly prepared to 
compete in a Han-dominated job market.\112\ Fischer observes in 
a forthcoming paper that preferential policies toward Tibetans 
are not as important in ``dealing with disjunctures across 
changing educational and employment systems'' as achieving 
``holistic political representation and decision making of 
minority groups.'' \113\
    The Qinghai-Tibet railway, a premier project of the Great 
Western Development program\114\ that entered service in July 
2006,\115\ is an example of how Chinese policies prioritize 
accelerating economic development over protecting ethnic 
minorities' rights of autonomy. The impact of the Qinghai-Tibet 
railway could overwhelm Tibetans and sharply increase pressure 
on the Tibetan culture. Based on Commission analysis of 
fragmentary and sometimes contradictory information, more than 
a half million passengers, most of whom are likely to be ethnic 
Han, may have traveled during the first 18 months of railway 
operation (July 2006 through December 2007) to the TAR to seek 
work, trade, and business opportunities.\116\
    The Chinese government announced in January 2008 steps 
toward building a new railway that will open up the eastern TAR 
and Ganzi (Kardze) TAP--areas where Tibetan protesters have 
been active--to population influx from one of China's most 
populous provinces.\117\ The railway will originate in Chengdu 
city, the capital of Sichuan province, and traverse Kangding 
(Dartsedo), Yajiang (Nyagchukha), Litang (Lithang), and Batang 
(Bathang) counties in Ganzi TAP before entering the TAR near 
Mangkang (Markham) county in Changdu (Chamdo) prefecture, based 
on a China Daily sketch.\118\
    A Ministry of Railways spokesman said in August 2008 that 
the government expects to complete construction by 2020 of six 
rail lines feeding the Qinghai-Tibet railway.\119\ Authorities 
had announced two of the rail lines (Lhasa-Rikaze and Lhasa-
Linzhi) previously.\120\ The spokesman did not provide any 
information about the railway route between Golmud city and 
Chengdu city. Depending on the government's economic, 
political, and geographic objectives, the route could traverse 
a number of Tibetan autonomous areas, including one or both of 
Yushu and Guoluo (Golog) TAPs in Qinghai province, and one or 
both of Ganzi TAP and Aba (Ngaba) Tibetan and Qiang Autonomous 
Prefecture in Sichuan province.\121\ Such a route would pass 
through some of the most remote Tibetan autonomous areas--areas 
where remoteness and the unavailability of high-capacity 
transportation links have helped the proportion of Tibetan 
population to remain relatively high.\122\
    A five-year TAR government economic development program 
announced in the aftermath of the Tibetan protests indicates 
that government policy will prioritize and accelerate 
industrial expansion and resource extraction.\123\ TAR economic 
commission director Li Xia said that the government ``will pool 
21.17 billion yuan (about 3 billion U.S. dollars) for 10 mining 
projects, four construction and building material enterprises, 
three medicine and food plants, and five industrial development 
zones in five years.'' \124\ The government expects the 
projects to be operational by 2013, Li said.\125\ The report 
did not disclose details about the source of the funding for 
the projects, the location of the industrial development zones, 
or the extent to which authorities expect the new projects to 
attract non-Tibetans to the TAR to seek employment. The total 
cost of the 22 projects will be equal to approximately two-
thirds of the 33 billion yuan cost of constructing the Qinghai-
Tibet railway.\126\
    Another state-run program that prioritizes economic 
development by settling Tibetan nomads into compact communities 
is nearing completion throughout Tibetan areas, disrupting an 
important sector of the Tibetan culture and economy.\127\ 
Nomads participated in the wave of protests following March 10 
in substantial numbers, placing some Tibetan counties on the 
protest map for the first time\128\ since the current period of 
Tibetan political activism began in 1987.\129\

 Consequences of the Protests: Death, Detention, Patriotic Education, 
                               Isolation

    At no time since Tibetans resumed political activism in 
1987 has the magnitude and severity of consequences to Tibetans 
(named and unnamed) who protested against the Chinese 
government been as great as it is now upon the release of the 
Commission's 2008 Annual Report. Few details are available 
about the thousands of Tibetans whom Chinese security officials 
detained, beat, fired on, or otherwise harmed as armed forces 
suppressed protests or riots and maintained security lockdowns. 
China's state-run media reported extensively on personal injury 
and property damage that Tibetan rioters caused from March 14 
to 19 in locations such as Lhasa city, Aba county, and Gannan 
TAP, but authorities provided few details about the thousands 
of Tibetans whom they acknowledge detaining as a result of the 
incidents. Moreover, officials have provided little information 
about the suppression of peaceful Tibetan protests that took 
place over a period of weeks in more than 40 counties where 
Chinese state media did not report rioting, and where security 
officials reportedly detained thousands more Tibetans.\130\ 
[See 2008 Annual Report, Section II--Rights of Criminal 
Suspects and Defendants for more information about legal 
process and abuse of Tibetan detainees.]

death

    At least 218 Tibetans had died by June as the result of 
Chinese security forces using lethal force (such as gunfire) 
against Tibetan protesters, or from severe abuse (such as 
beating and torture), according to an August 21 Tibetan 
government-in-exile (TGiE) report.\131\ The Tibetan Centre for 
Human Rights and Democracy 
reported on June 20 that ``more than 100'' Tibetans had 
died.\132\ Neither organization commented publicly on the 
substantial difference between the estimates. If a report is 
accurate that, on March 28, authorities cremated near Lhasa 
more than 80 (apparently unidentified) bodies of Tibetans 
killed in connection with protest (or riot) activity, then a 
full accounting of all of the casualties may never occur.\133\
    The March 14 Lhasa protests and rioting resulted in the 
largest number of Tibetan fatalities reported for a single 
incident. On March 16, the TGiE reported that ``at least 80 
people were killed'' on March 14 in Lhasa.\134\ Jampa Phuntsog 
(Xiangba Pingcuo), Chairman of the TAR government, denied at a 
March 17 press conference, however, that security forces 
carried or used ``any destructive weapons'' as they suppressed 
the March 14 riot.\135\ Additional incidents of lethal weapons 
fire against Tibetan protesters took place on at least six 
occasions outside the TAR, according to NGO and media reports: 
on March 11 in Daocheng (Dabpa) county, Ganzi TAP, Sichuan 
province;\136\ March 16 in Aba county, Aba prefecture, Sichuan 
province;\137\ March 16 (or March 18) in Maqu county, Gannan 
TAP, Gansu province;\138\ March 18 in Ganzi county, Ganzi 
TAP;\139\ March 24 in Luhuo (Draggo) county, Ganzi TAP;\140\ 
and on April 3 in Ganzi county.\141\ Up to 15 Tibetans were 
reportedly wounded by weapons fire on April 5 in Daofu (Dawu) 
county, Ganzi TAP, but no fatalities were reported.\142\ The 
Dalai Lama issued statements on March 18\143\ and April 6\144\ 
appealing to Tibetans to refrain from violent activity.
    Chinese officials have not acknowledged the deaths of 
Tibetan protesters as the result of lethal force used by 
Chinese security forces.\145\ Instead, state-run media has 
emphasized the consequences of Tibetan violence, especially the 
deaths of 18 civilians and 1 policeman in the March 14 Lhasa 
riot.\146\ International media and non-governmental 
organizations also reported Tibetan violence, sometimes 
resulting in death, against ethnic Han and Hui individuals in 
Lhasa.\147\

detention

    Unless Chinese authorities have released without charge a 
very high proportion of the Tibetans reportedly detained as a 
result of peaceful activity or expression on or after March 10, 
2008, the resulting surge in the number of Tibetan political 
prisoners may prove to be the largest increase in such 
prisoners\148\ that has occurred under China's current 
Constitution\149\ and Criminal Law.\150\ The current period of 
Tibetan political activism began in 1987. [See chart titled 
Tibetan Political Detention by Year, 1987-2008 below.]
    Chinese security officials detained thousands of Tibetans, 
first in connection with the cascade of protests (and sometimes 
rioting) followed by the imposition of security lockdowns at 
protest locations, and then as monks, nuns, and other Tibetans 
expressed anger at the aggressive reimplementation of political 
indoctrination campaigns, including patriotic education. 
China's state-run media acknowledged in reports in March and 
April 2008 that a total of 4,434 persons characterized as 
``rioters'' had either surrendered to security forces or were 
detained by them in nine counties where rioting reportedly took 
place between March 14 and 19.\151\ The nine counties were 
located in Lhasa municipality and Gannan TAP. The reports did 
not name or provide detailed information about any of the 
detainees. Two official reports on April 9\152\ and one report 
on June 21\153\ disclosed the release of a total of 3,027 of 
the 4,434 persons who reportedly surrendered or were detained. 
The June 21 report (on Lhasa) noted that the persons released 
had ``expressed regret for conducting minor crimes.'' \154\ 
Based on the April 9 and June 21 reports, the status of more 
than 1,200 of the persons who had surrendered or been detained 
remained unknown.\155\ [For detailed information, see table 
titled Official Chinese Sources: Detention, Surrender, and 
Release of Alleged ``Rioters'' below.]
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


               Official Chinese Sources: Detention, Surrender, and Release of Alleged ``Rioters''
----------------------------------------------------------------------------------------------------------------
                                                                                    Linzhou
                                                                                    county,      Aba
                                                                                    March 14   county,
                                 Lhasa city,  March 14   Gannan TAP,  March 14-19   rioting    March 18
                                    rioting  Xinhua,      rioting  Xinhua, April     Tibet     rioting    Total
                                      April 9\156\                9\157\             Daily,    Xinhua,
                                                                                     March      March
                                                                                    19\158\    25\159\
----------------------------------------------------------------------------------------------------------------
Surrender: Total                 362                    2,204 (incl. 519 monks)           94        381    3,041
  Surrender: Released            328                    1,870 (incl. 413 monks)
  Surrender: Formal arrest
  Surrender: Remain detained     34                     334 (incl. 106 monks)
Police detention: Total          953                    440 (incl. 170 monks)                              1,393
  Police detention: Released
  Police detention: Formal       403                    8
   arrest
  Police detention: Remain
   detained
Total: Surrendered or detained   1,315                  2,644                             94        381    4,434
Total: Remain detained           116                                                                         116
(Reports as of June)             China Daily, June
                                  21\160\
Total: Sentenced                 42                                                                           42
(Reports as of June)             China Daily, June 21
Total: Released                  1,157                  1,870                                              3,027
(Reports as of June)             China Daily, June 21   Xinhua, April 9
Total: Status unknown            0                      774                               94        381    1,249
(Reports as of June)
----------------------------------------------------------------------------------------------------------------

    Chinese authorities had by late June provided detailed 
legal process information about only a few dozen of the 
protest- and riot-related cases that may have reached trial in 
the Lhasa area, and no information about a possibly greater 
number of prosecutions that could take place in other locations 
across the Tibetan protest area. All but 14\161\ of the 
individual cases known to the Commission about which China 
disclosed criminal charge information 
involved charges of violent or ordinary crime committed during 
activity characterized as rioting.
    The largest such disclosure of official information was on 
the Lhasa Intermediate People's Court April 29, 2008, 
sentencing of 30 Tibetans to imprisonment for periods ranging 
from three years to life.\162\ The court convicted the 
defendants for crimes described as ``arson, looting, picking 
quarrels and provoking troubles, assembling a crowd to storm 
state organs, disrupting public service, and theft.'' \163\ A 
Lhasa court convicted an additional 12 persons on similar 
charges on June 19 and 20, bringing to 42 the total of 
officially acknowledged convictions linked to alleged riot-
related activity in Lhasa municipality, according to an 
official report.\164\ An additional 116 persons were awaiting 
trial.\165\ A Party-run Web site disclosed on March 30 a 
reshuffling of TAR court and procuratorate personnel that could 
have facilitated an increase in case handling capacity by the 
two intermediate people's courts located nearest to Lhasa.\166\ 
An official Chinese report disclosed on July 11 that on June 19 
and 20 four local courts in Lhasa and Shannan (Lhoka) 
Prefecture sentenced an additional 12 persons to imprisonment 
for alleged involvement in the Lhasa rioting.\167\ The same 
report disclosed that courts had not yet sentenced anyone to 
death in connection with alleged rioting, but that 116 persons 
``were on trial'' and that Chinese law would determine whether 
some of the persons tried would be sentenced to execution.\168\
    The most extensive NGO compilation of detailed information 
about the detention of Tibetans resulting from the protests has 
been an April 25, 2008, Tibetan Centre for Human Rights and 
Democracy (TCHRD) list of 518 Tibetans.\169\ Media 
organizations and NGOs continued to report additional 
detentions during the months preceding publication of the 
Commission's Annual Report. Two reports released in August by 
different Tibetan reporting agencies placed the total number of 
Tibetan detentions since March 10 at 6,705 and ``over 6,500'' 
respectively.\170\ Neither report provided any information 
about the number of detainees who had been released or remain 
detained, or who had been sentenced to imprisonment or 
reeducation through labor (RTL). Security officials in the TAR 
``deported'' on April 25 to Qinghai province 675 monks, 
including 405 monks studying at Drepung Monastery and 205 monks 
studying at Sera Monastery, according to an August 28 media 
organization report.\171\ Many of the monks were originally 
from Qinghai; others were from Tibetan autonomous areas of 
Sichuan province.\172\ ``All'' of the monks from Qinghai 
remained detained in their hometowns, according to the report, 
which did not name any of the detainees and provided few 
details about detainees' current locations.\173\ The 610 
Drepung and Sera monks removed from the TAR were among a total 
of approximately 950 monks authorities detained from the two 
monasteries on April 10 and April 14, according to the same 
report.\174\

patriotic education

    The Party responded to the Tibetan protests with further 
escalation of the very political indoctrination campaigns, such 
as patriotic education (``love the country, love religion''), 
that helped to 
provoke Tibetans into protesting in the first place.\175\ Party 
Secretary Zhang Qingli issued an order on April 3 that 
officials across the TAR must conduct patriotic education 
programs at monastic institutions, workplaces, businesses, and 
schools, and require participants to sign denunciations of the 
Dalai Lama, according to a media report.\176\ The Tibet Daily 
reported that the Party had organized a teleconference to warn 
cadres against ``war-weariness'' and to conduct educational 
activities that would ``remove the scales'' from the eyes of 
the ``vast masses'' so that they would ``see clearly what Dalai 
really wants and what he has already done.'' \177\ According to 
another Tibet Daily report, the Lhasa city school system 
trained nearly 3,700 patriotic education ``core instructors'' 
who lectured a total of nearly 180,000 persons who attended a 
total of more than 1,000 lectures.\178\ Officials in Tibetan 
autonomous areas outside the TAR launched political 
indoctrination campaigns\179\ in prefectures where protests 
took place,\180\ as well as in locations where protests were 
not reported.\181\
    The aggressive new patriotic education campaigns fueled a 
second wave of protests and detentions that began in April and 
continued as the Commission prepared the 2008 Annual Report. 
Authorities may have detained hundreds of monks, nuns, and 
other Tibetans as the result of incidents arising from Tibetan 
refusals to fulfill the demands of patriotic education 
instructors.\182\ Government measures to prevent information 
from reaching international observers have hindered an accurate 
assessment of the full impact of patriotic education and other 
political indoctrination programs on Tibetan communities. In 
addition to the standard demand that monks and nuns denounce 
the Dalai Lama, officials sought to pressure senior Tibetan 
Buddhist figures\183\ and ordinary monks, nuns, and 
villagers\184\ to affirm support for the Chinese government 
assertion that the Dalai Lama was responsible for the protests 
and rioting. Authorities in some cases vandalized or destroyed 
images of the Dalai Lama, offending monks and nuns and 
prompting comparisons with the Cultural Revolution.\185\ 
Security forces responded to an April 3 protest resulting from 
patriotic education in Ganzi county with lethal weapons 
fire.\186\

isolation

    Chinese security officials imposed and maintained measures 
that isolated Tibetan communities from each other and from the 
outside world as the Tibetan protests spread and the Chinese 
government response gathered momentum. Authorities confiscated 
cell phones and computers, turned off cellular transmission 
facilities, and interfered with Internet access, according to 
accounts.\187\ Authorities threatened Tibetans with punishment 
if they shared information about Tibetan fatalities or 
detentions.\188\
    The Chinese government continued to deny international 
journalists and foreign tourists access to the TAR after 
dropping plans to reopen the region to such visitors on May 
1.\189\ Ministry of Foreign Affairs Spokesman Qin Gang 
confirmed on June 12, 2008, that the TAR remained temporarily 
closed to foreign journalists and blamed the closure on ``the 
Dalai Clique.'' \190\ The level of access by foreign 
journalists and tourists to Tibetan autonomous areas located in 
other provinces--which unlike the TAR do not require special 
permits of foreigners for entry--varied during the post-March 
10 period. [See 2008 Annual Report, Section II--Freedom of 
Expression--Restrictions Bolster Image of Party and 
Government.] The Dalai Lama stated in a May 25 interview that 
the most important gesture he would like to see from the 
Chinese government would be to permit international journalists 
to travel to the Tibetan areas of China to ``look, investigate, 
so the picture becomes clear.'' \191\

             Long-term Implications of the Tibetan Protests

    Chinese government decisions guiding recovery from the wave 
of protests (and rioting) could alter the outlook for the 
Tibetan culture, religion, language, and heritage. Continuing 
with the current mix of policy, law, and implementation, and 
waiting for the Dalai Lama to pass away so that Chinese 
officials can supervise the installation of a Dalai Lama whom 
Tibetans are unlikely to accept, could result in heightened 
risks to local and regional security for decades to come.
    A Chinese government decision to fulfill the Constitution's 
guarantees of the freedoms of speech, religion, and 
association; to ensure that laws and regulations on regional 
ethnic autonomy deliver to Tibetans the right to ``administer 
their internal affairs''; and to engage the Dalai Lama in 
substantive dialogue on the Tibet issue, can result in a 
durable and mutually beneficial outcome for Chinese and 
Tibetans.

  Tibetan Political Imprisonment: No News of Early Release, Sentence 
                               Reduction

    The Commission is not aware of any reports of Tibetan 
political prisoners to whom Chinese authorities granted a 
sentence reduction or an early release from imprisonment during 
the past year. The Dui Hua Foundation noted in a June 17, 2008, 
report that it had not seen any such developments recently, and 
that cases involving the charge of splittism\192\ are being 
``strictly handled.'' \193\ Officials rarely grant clemency to 
Tibetan or Uyghur political prisoners, who are typically 
charged with splittism, Dui Hua said.\194\
    The Commission is not aware of new developments in the 
cases of Tibetan monk Jigme Gyatso\195\ (detained in 1996 and 
serving an extended 18-year sentence for printing leaflets, 
distributing posters, and later shouting pro-Dalai Lama slogans 
in prison); monk Choeying Khedrub\196\ (sentenced in 2000 to 
life imprisonment for printing leaflets); reincarnated lama 
Bangri Chogtrul\197\ (detained in 1999 and serving a sentence 
of 18 years commuted from life imprisonment for ``inciting 
splittism''); or nomad Ronggyal Adrag (sentenced in November 
2007 to 8 years' imprisonment for shouting political slogans at 
a public festival).

      Addendum: List of Tibetan Protest Sites, County-level Areas

    County-level areas and cities where peaceful Tibetan 
protests (and in some cases, riots) reportedly took place from 
March 10, 2008, through the end of April. Multiple protests 
took place in several counties.
    Beijing municipality (1)
    Beijing municipality (1): Beijing city.

    Tibet Autonomous Region (17)
        <bullet> Lhasa municipality (7): Lasa (Lhasa) city, 
        Linzhou (Lhundrub) county, Dangxiong (Damshung) county, 
        Qushui (Chushur) county, Duilongdeqing (Toelung Dechen) 
        county, Dazi (Tagtse) county, Mozhugongka (Maldro 
        Gongkar) county.
        <bullet> Changdu (Chamdo) prefecture (4): Jiangda 
        (Jomda) county, Gongjue (Gonjo) county, Basu (Pashoe) 
        county, Mangkang (Markham) county.
        <bullet> Shannan (Lhoka) prefecture (1): Zhanang 
        (Dranang) county.
        <bullet> Rikaze (Shigatse) prefecture (2): Rikaze city, 
        Sajia (Sakya) county.
        <bullet> Naqu (Nagchu) prefecture (2): Naqu county, Suo 
        (Sog) county.
        <bullet> Ali (Ngari) prefecture (1): Ritu (Ruthog) 
        county.

    Qinghai province (13)
        <bullet> Xining municipality (1): Xining city.
        <bullet> Haidong prefecture (1): Hualong Hui Autonomous 
        County.
        <bullet> Huangnan (Malho) Tibetan Autonomous Prefecture 
        (TAP) (3): Tongren (Rebgong) county, Jianzha (Chentsa) 
        county, Zeku (Tsekhog) county, Henan (Yulgan) Mongol 
        Autonomous county.
        <bullet> Hainan TAP (4): Gonghe (Chabcha) county, 
        Tongde (Gepasumdo) county, Xinghai (Tsigorthang) 
        county, Guinan (Mangra) county.
        <bullet> Guoluo (Golog) TAP (3): Banma (Pema) county, 
        Dari (Darlag) county, Jiuzhi (Chigdril) county.
        <bullet> Yushu (Yulshul) TAP (1): Yushu (Kyegudo) 
        county.

    Gansu province (7)
        <bullet> Lanzhou municipality (1): Lanzhou city.
        <bullet> Gannan (Kanlho) TAP (6): Hezuo (Tsoe) city, 
        Xiahe (Sangchu) county, Luqu (Luchu) county, Maqu 
        (Machu) county, Diebu (Thewo) county, Zhuoni (Chone) 
        county.

    Sichuan province (17)
        <bullet> Chengdu municipality (1): Chengdu city.
        <bullet> Aba (Ngaba) Tibetan and Qiang Autonomous 
        Prefecture (5): Ma'erkang (Barkham) county, Songpan 
        (Zungchu) county, Ruo'ergai (Dzoege) county, Aba 
        county, Rangtang (Dzamthang) county.
        <bullet> Ganzi (Kardze) TAP (11): Kangding (Dartsedo) 
        county, Daocheng (Dabpa) county, Yajiang (Nyagchukha) 
        county, Litang (Lithang) county, Xinlong (Nyagrong) 
        county, Daofu (Tawu) county, Luhuo (Draggo) county, 
        Ganzi county, Dege county, Shiqu (Sershul) county, Seda 
        (Serthar) county.

                                Addendum


   THE JUNE 2008 GANZI MEASURES: DEALING STRICTLY WITH TROUBLEMAKING 
                      MONKS, NUNS, AND MONASTERIES

    The government of Ganzi (Kardze) Tibetan Autonomous 
Prefecture (TAP), located in Sichuan province, issued with 
immediate effect on June 28, 2008, the ``Measures for Dealing 
Strictly With Rebellious Monasteries and Individual Monks and 
Nuns'' (Ganzi Measures).\198\ The Ganzi Measures are divided 
into three groups: Articles 1 to 4 deal with ``monk and nun 
troublemakers''; Articles 5 to 9 address ``troublemaking 
monasteries''; Articles 10 to 12 seek to punish management 
officials of monasteries and nunneries who failed to ``fulfill 
their responsibilities.''
    Based on Commission staff analysis, some punishments do not 
appear to have a clear basis in national legal measures that 
establish central government regulatory power over religious 
activity in China. Three examples are:

        <bullet> The punitive demolition of lawfully 
        constructed monastic residences;
        <bullet> The punitive reduction of the number of 
        lawfully registered monks or nuns entitled to reside at 
        a monastery or nunnery; and
        <bullet> The punitive removal from a reincarnated 
        Tibetan Buddhist teacher of his religious position and 
        function.

        MONKS AND NUNS: REEDUCATION, CRIMINAL CHARGES, EXPULSION

    Articles 1 to 4 divide punishment for monks and nuns into 
four levels of severity. Determinants include official 
assessment of whether an alleged offense is ``minor'' or 
``serious,'' whether or not a monk or nun is cooperative and 
provides a written statement of guilt, and whether a monk or 
nun is ``stubborn.''
    Articles 1 to 3 impose ``reeducation.'' Article 1 applies 
the least level of punishment and allows a monk or nun to 
undergo reeducation in a family household if the head of 
household serves as guarantor that the monk or nun will remain 
inside the house and ``strictly follow reeducation.'' Articles 
2 and 3 require that reeducation take place ``in custody,'' but 
the measures do not specify the type of facility in which the 
monk or nun will be confined while under custody.
    Article 4 provides for punishment ``according to law'' for 
activities such as ``instigating splittism and disturbances'' 
(e.g., prosecution in a court on charges such as Article 103 of 
China's Criminal Law (inciting ``splittism''), or Article 293 
(``creating disturbances'')). Other activities punishable by 
law are ``hatching conspiracies,'' ``forming organizations,'' 
and ``taking a leading role.''
    Articles 3 and 4 include expulsion of a monk or nun from a 
monastery or nunnery and permanent revocation of official 
status as a monk or nun.

       MONASTERIES AND NUNNERIES: SHRINKING SOME, CLOSING OTHERS

    Articles 5 to 9 describe ``cleansing and rectification'' of 
monasteries and nunneries, a process that penalizes the 
institution of Tibetan Buddhism.
    Article 5 provides rectification for monasteries and 
nunneries where 10 percent to 30 percent of monks and nuns 
participated in ``disturbances.'' The monastery or nunnery will 
be sealed off, searched, religious activity suspended, and 
``suspect persons detained according to law.''
    Article 6 provides for rectification of Democratic 
Management Committees (DMCs) at monasteries and nunneries where 
DMC members ``participated in disturbances.'' Local government 
officials may take over the management of a monastery or 
nunnery if they deem ``suitable personnel'' to be unavailable. 
Normal management functions of monasteries and nunneries will 
be suspended while a DMC undergoes rectification.
    Article 7 provides for expelling monks and nuns from 
monasteries and nunneries and annulling their official status 
as ``religious practitioners'' if they do not ``assist'' 
officials conducting rectification, refuse to be photographed 
and registered, leave a monastery or nunnery without 
permission, or fail to ``correct themselves'' during 
reeducation.
    Article 7 provides for the demolition of monastic 
residences that were occupied by monks or nuns that officials 
expel. (The Commission is not aware of a national or provincial 
legal measure that provides for the demolition of monastic 
residences as punishment for offenses such as those listed in 
Article 7. Based on information available to the Commission, 
monasteries and nunneries apply for and receive permission from 
local government officials to renovate or construct monastic 
residences.\199\ The Ganzi Measures do not make clear whether 
the residences of monks and nuns expelled under Articles 3 and 
4 will also be demolished.)
    Article 8 requires re-registration of all monks and nuns 
resident at monasteries and nunneries involved in 
``disturbances.''
    Article 8 reduces the total number of monks and nuns 
permitted to reside at monasteries and nunneries involved in 
``disturbances'' by the number of monks or nuns who are 
expelled from each monastery or nunnery. (Once officials reduce 
the number of monks and nuns permitted to reside at a monastery 
or nunnery, restoring the number of monks and nuns to its 
previous level would require coordination between a monastery 
or nunnery's Democratic Management Committee,\200\ a state-
controlled Buddhist association, and the local 
government.\201\)
    Article 9 provides for the investigation, loss of status as 
a ``registered religious institution,'' and closure of a 
monastery or nunnery if officials determine that a DMC does not 
improve after rectification, or if monks or nuns ``go out again 
and make trouble.'' (Once a monastery or nunnery is de-
registered and closed, provisions of the Regulation on 
Religious Affairs would require provincial-level approval 
before the monastery or nunnery could be re-established.\202\)

MONASTIC OFFICIALS, TEACHERS, AND TRULKUS: PUBLIC HUMILIATION, LOSS OF 
                                POSITION

    Articles 10 to 12 punish members of a monastery or 
nunnery's DMC that do not maintain control of monks and nuns 
and ``take a clear stand on the issue'' (e.g., uphold 
government and Party policy). All three measures refer to DMC 
officials including monks, khenpos (abbots), geshes (teachers 
who have attained the most advanced degree of monastic 
education), and trulkus (teachers that Tibetan Buddhists 
believe are reincarnated).
    Article 10 provides for ``careful scrutiny'' of mistakes, 
criticism, and reeducation of DMC members that were ``not 
directly involved in disturbances,'' but that failed to ``take 
a clear stand on the issue,'' investigate and discipline monks 
and nuns that protested, or that were ``lax'' or deemed to have 
committed ``instances of poor management.''
    Article 11 provides for television and newspaper coverage 
of ``detailed examination'' of DMC members before a monastic 
assembly if DMC members are ``two-faced'' or fail to ``make 
their attitude clear.'' Such DMC members must submit a 
``written guarantee'' (presumably of correct behavior) at the 
publicized event.
    Article 12 provides for punishment under China's Criminal 
Law as well as loss of government, consultative, and religious 
positions for DMC members that ``collude with foreign 
separatists'' (a probable reference to the Dalai Lama and the 
Tibetan Buddhist monastic community in other countries), 
``assist'' protests, ``tolerate'' protests, or ``incite'' 
others to protest. Officials will strip trulkus accused of such 
behavior of ``the right to hold the incarnation lineage.'' (The 
Commission is not aware of a legal basis in China's national 
regulations on religion for stripping a trulku of ``the right'' 
to be a trulku. The 2007 Management Measures for the 
Reincarnation of Living Buddhas in Tibetan Buddhism (MMR) 
provide detailed regulation of the process of identifying, 
seating, and educating a reincarnated Tibetan Buddhist 
teacher--including regulation of whether or not a reincarnated 
teacher is entitled to reincarnate once again.\203\ The MMR 
does not, however, provide a process whereby the state may 
``strip'' a trulku of his religious position and function.)

                                Endnotes

    \1\ ``China Detains Tibetan Monks Protesting on Key Anniversary,'' 
Radio Free Asia (Online), 10 March 08.
    \2\ See The Crisis in Tibet: Finding a Path to Peace, Hearing of 
the Committee on Foreign Relations, U.S. Senate, 23 April 08, Written 
Statement Submitted by Steven Marshall, Senior Advisor, Congressional-
Executive Commission on China. See also, ``Protests Fueled by Patriotic 
Education Continue Amidst Lockdowns,'' Congressional-Executive 
Commission on China (Online), 10 April 08.
    \3\ Intermittent armed conflict between Tibetans and the People's 
Liberation Army (PLA) took place at various times and locations 
following establishment of the People's Republic of China on October 1, 
1949, and continued through the 1950s as the PLA cemented political 
control in ethnic Tibetan areas that today comprise the Tibet 
Autonomous Region (TAR), the 10 Tibetan Autonomous Prefectures (TAPs), 
and 2 Tibetan Autonomous Counties (TACs) located in Qinghai, Gansu, 
Sichuan, and Yunnan provinces.
    \4\ The past 25 years (since approximately 1983) in the Tibetan 
areas of China have been characterized by factors including the Tibetan 
rebuilding of the Tibetan Buddhist monastic institution and the 
resumption of Tibetan Buddhism as a central (though constrained) 
feature in the lives of most Tibetans. See, e.g., Tibetan Centre for 
Human Rights and Democracy (TCHRD) (Online), ``Human Rights Situation 
in Tibet: Annual Report 2005,'' 118. TCHRD notes in note 72 that the 
period from 1983 to 1987 ``was one of rapid growth for monasteries and 
nunneries.'' Tibet Information Network, ``News Review No. 26: Reports 
From Tibet, 1997,'' April 1998, 4. The news summary notes, ``Until 1983 
some 70 monks at Drepung monastery were married men with families.''
    \5\ CECC, 2007 Annual Report, 10 October 07, Section IV. ``Tibet: 
Special Focus for 2007'' provides an overview of Commission Annual 
Report coverage since 2002 of key Tibetan issues.
    \6\ The 12 county-level areas are: Lhasa city, Duilongdeqing 
(Toelung Dechen), Linzhou (Lhundrub), and Dazi (Tagtse) counties, 
located in Lhasa municipality in the TAR; Aba (Ngaba) and Ruo'ergai 
(Dzoege) counties, located in Aba Tibetan and Qiang Autonomous 
Prefecture in Sichuan province; and Xiahe (Sangchu), Maqu (Machu), Luqu 
(Luchu), Zhuoni (Chone), and Diebu (Thewo) counties, and Hezuo (Tsoe) 
city, located in Gannan (Kanlho) TAP in Gansu province. ``Judgments 
Pronounced Publicly on Some Defendants Involved in Lhasa's `14 March' 
Incident,'' Xinhua, 29 April 08 (Open Source Center, 30 April 08). The 
Xinhua article refers to five monks sentenced for rioting in Dechen 
township of Duilongdeqing county. ``94 Criminal Suspects in Linzhou 
County Surrender Themselves to Justice,'' Tibet Daily, 19 March 08 
(Open Source Center, 19 March 08). The Tibet Daily article reports the 
surrender of persons allegedly involved in ``serious incidents of 
beating, smashing, looting, and burning'' in Linzhou county. ``Tibet 
Issues Arrest Warrants for 16 Suspects In Riot,'' Xinhua (Online), 5 
April 08. According to the April article in Xinhua, the 16 suspects 
allegedly took part in a March 15 riot in Dechen township, located in 
Dazi county. ``Police: Four Rioters Wounded Sunday in Aba of SW 
China,'' Xinhua (Online), 20 March 08. The Xinhua article from March 
reports Tibetan rioting in Aba (Ngaba) county, Aba Tibetan and Qiang 
Autonomous Prefecture, Sichuan province. Security forces reportedly 
shot and wounded four Tibetans. (The Tibetan Centre for Human Rights 
and Democracy reported on March 18 that security forces shot and killed 
at least 18 Tibetans.) ``Lies Cannot Conceal Evil Nature,'' Sichuan 
Daily, 10 April 08 (Open Source Center, 16 April 08). The Sichuan Daily 
article alleges that on March 15, Lhamo Kirti (Tagtsang Lhamo) 
Monastery monks attacked government offices, police stations, and 
shops. Similar incidents reportedly took place elsewhere in Ruo'ergai. 
``Media Tour in Gansu Interrupted, Resumes Soon,'' Xinhua (Online), 9 
April 08. According to this Xinhua article: ``From March 14 to 19, 
assaults, vandalism, looting and arson occurred in the Xiahe, Maqu, 
Luqu, Jone, Hezuo and Diebu areas of Gannan . . . .''
    \7\ ``Protests Fueled by Patriotic Education Continue Amidst 
Lockdowns,'' Congressional-Executive Commission on China (Online), 10 
April 08.
    \8\ ``Dalai-Backed Violence Scars Lhasa,'' Xinhua (Online), 15 
March 08; ``China Clamps Down on Tibetan Protests As Many Deaths, 
Injuries Reported,'' Radio Free Asia (Online), 14 March 08; Jim 
Yardley, ``Chinese Police Clash With Tibet Protesters,'' New York Times 
(Online), 15 March 08.
    \9\ ``Police, Officials Hurt in Sichuan Riots,'' Xinhua (Online), 
20 March 08; ``Violence, Protests Spread From Tibet to Western China,'' 
Radio Free Asia (Online), 16 March 08; Benjamin Kang Lim and Chris 
Buckley, ``Tibetan Riots Spread, Security Lockdown in Lhasa,'' Reuters 
(Online), 16 March 08.
    \10\ ``Media Tour in Gansu Interrupted, Resumes Soon,'' Xinhua; 
TibetInfoNet (Online), `` `The World Will Not Look Away.' 
Demonstrations in Amdo Machu and Region,'' 17 March 08.
    \11\ Jill Drew, ``Tibet Protests Turn Violent, Shops Burn in 
Lhasa,'' Washington Post (Online), 14 March 08. According to the 
report, ``The confrontations, initially led by monks, were joined 
Friday by hundreds of Tibetan civilians, who began attacking shops 
owned by ethnic Han and Hui Chinese. Street fights between Tibetans and 
Chinese continued into the night, according to reports from the 
region.'' International Campaign for Tibet (Online), ``Tibet at a 
Turning Point: The Spring Uprising and China's New Crackdown,'' 5 
August 08, 54. The report quotes an eyewitness description of activity 
on March 14 near Ramoche Temple in Lhasa: ``Then they poured into 
Tromsikhang [the market at the corner of Barkhor Street] from Ramoche 
Temple. On the way, many shops owned by Chinese and Chinese Muslims 
(Hui) were destroyed.''
    \12\ ``Number of Rioters Surrendering to Police Tops 280 in 
Lhasa,'' Xinhua (Online), 26 March 08 (``Rioters [in Lhasa] . . . 
attacked schools, banks, hospitals, shops, government offices, 
utilities and state media offices. Damage is estimated at more than 244 
million yuan (34.4 million U.S. dollars).''); ``More Than 200 Injured, 
Shops Set Alight in Aba Riot,'' Xinhua, reprinted in China Daily 
(Online), 3 April 08 (``More than 200 people were injured and 24 shops 
and 81 vehicles were set alight in the March 16 riot in the Aba Tibetan 
and Qiang Autonomous Prefecture of southwestern China, an official said 
Thursday.''); ``Media Tour in Gansu Interrupted, Resumes Soon,'' Xinhua 
(``From March 14 to 19, assaults, vandalism, looting and arson occurred 
in the Xiahe, Maqu, Luqu, Jone, Hezuo and Diebu areas of Gannan, 
leaving 94 people injured and incurring 230 million yuan (32.8 million 
U.S. dollars) in damages.'')
    \13\ See, e.g., Jim Yardley, ``Tibetans Clash With Chinese Police 
in 2nd City,'' New York Times (Online), 16 March 08. The New York Times 
reported that according to a Tibetan in India who spoke by phone to 
Tibetan protesters in Xiahe county, Gansu province, thousands of 
protesters on March 16 shouted slogans including, ``The Dalai Lama must 
return to Tibet.'' Tibetan Centre for Human Rights and Democracy 
(Online), ``Scores of Tibetans Arrested for Peaceful Protest in 
Lhasa,'' 11 March 08. On March 10 in Guinan (Mangra) county, Qinghai 
province, a few hundred protesters shouted slogans calling for the 
Dalai Lama to return to Tibet. Tibetan Centre for Human Rights and 
Democracy (Online), ``Around 40 Middle School Students Arrested in 
Marthang,'' 17 March 08. Approximately 100 Tibetan middle school 
students in Hongyuan (Kakhog, or Marthang) county, Sichuan province, 
demonstrated inside the school compound, calling for the return of the 
Dalai Lama to Tibet.
    \14\ See, e.g., Tibetan Centre for Human Rights and Democracy 
(Online), ``Protest Erupts After Prayer for Deceased in Drango 
County,'' 25 March 08. More than 400 monks in Luhuo (Draggo) county, 
Ganzi TAP, Sichuan province, shouted slogans on March 25 including, 
``Release [the] Panchen Lama.'' Tibetan Centre for Human Rights and 
Democracy (Online), ``Hundreds of Tibetans Protested in Chentsa, Malho 
`TAP,' Qinghai Province,'' 25 March 08. Hundreds of Tibetans protesting 
on March 22 in Jianza (Chentsa) county, Huangnan (Malho) TAP, Qinghai 
province, carried photographs of the Dalai Lama and Panchen Lama, and 
shouted slogans including, ``Release the eleventh Panchen Lama Erdeni 
Gedun Choekyi Nyima.'' ``Latest Updates on Tibet Demonstrations,'' 
Radio Free Asia (Online), 25 March 08. More than 1,000 monks and other 
Tibetans shouted slogans on March 18 in Xiahe (Sangchu) county, Gannan 
(Kanlho) TAP, Gansu province, including, ``Release the Panchen Lama.''
    \15\ See, e.g., ``Tibet Update (1),'' China Digital Times (Online), 
last visited on 18 June 08. The Drepung monks ``joined the peaceful 
demonstration, demanding the freedom for religious belief.'' In another 
protest, several hundred Labrang Tashikhyil monks and ordinary citizens 
staged a protest march on March 14 and shouted slogans including, 
``Return us to religion freedom.'' Tibetan Centre for Human Rights and 
Democracy (Online), ``China Detains Drakar and Gaden Choeling Nuns in 
Kardze,'' 17 May 08. Two nuns were detained for calling for religious 
freedom, among other things. The detentions sparked a larger protest 
resulting in the detention of at least 10 more nuns. ``Tibet Monks 
Disrupt Tour by Journalists,'' Associated Press, reprinted in New York 
Times (Online), 27 March 08. On March 27, a group of Jokhang Temple 
monks shouted that there was no religious freedom when a group of 
international journalists on a government-handled tour visited the 
temple.
    \16\ International Campaign for Tibet (Online), ``Climate of Fear 
as Olympic Torch Arrives in Lhasa,'' 20 June 08. According to ICT, of 
125 ``separate incidents of dissent'' that the organization documented, 
``47 have been carried out by monks, 44 by laypeople, and 28 by both 
monks and laypeople.''
    \17\ The Dalai Lama is the foremost religious teacher of the Gelug 
tradition of Tibetan Buddhism, whose adherents at present are more 
numerous than those of other traditions of Tibetan Buddhism such as the 
Nyingma, Kargyu, and Sakya. The Crisis in Tibet: Finding a Path to 
Peace, Hearing of the Subcommittee on Asian and Pacific Affairs, 
Committee on Foreign Relations, U.S. Senate, 23 April 08, Written 
Statement Submitted by John Negroponte, Deputy Secretary of State. 
Deputy Secretary Negroponte described the Dalai Lama as ``the 
undisputed spiritual leader of the Tibetan people,'' and ``the 
spiritual leader of the vast majority of Tibetans.''
    \18\ See, for example, Tibetan Centre for Human Rights and 
Democracy (Online), ``Mobile Phone Pictures Depict Intensity of 
Demonstration in Amdo Labrang,'' 14 March 08. A protest demonstration 
by Labrang Tashikhyil monks ``eventually grew into thousands when 
laypeople also joined in.'' Tibetan Centre for Human Rights and 
Democracy (Online), ``At Least Eight Shot Dead in Tongkor Monastery in 
Kardze,'' 5 April 08. Approximately 300 Tongkor Monastery monks 
marching in protest toward government offices were ``later joined by 
hundreds of laypeople.'' ``Tibetans Wounded in Sichuan Protest,'' Radio 
Free Asia (Online), 5 April 08. ``Local people'' joined protesting 
monks from Nyatso Monastery (referred to as ``Mintso'' in the article), 
increasing the crowd to about 1,000 persons.
    \19\ ``Door of Dialogue Still Opens to Dalai: Premier,'' Xinhua 
(Online), 18 March 08. ``There are ample facts and plenty of evidence 
to prove that the riot in Lhasa was organized, premeditated, 
masterminded and incited by the Dalai Lama clique, said Wen.''
    \20\ ``Hao Peng: Patriotic Education Should Be Reinforced Among 
Buddhist Monks at Monasteries,'' China Tibet News, 5 April 08 (Open 
Source Center, 10 April 08). Speaking to the Tashilhunpo Monastery 
Democratic Management Committee, Deputy Party Secretary Hao Peng called 
on the committee to ``educate the masses of monks so that they can see 
clearly the true colors of Dalai and recognize that Dalai has not been 
a Buddhist monk since a long time ago but a politician that engages 
himself in the evil deeds of separating the motherland by means of 
beating, smashing, looting, and burning under the disguise of a lama 
and under the signboard of Buddhism . . . .''
    \21\ Significant factors were Zhang Qingli's arrival in the TAR as 
Acting Party Secretary in November 2005, his promotion to TAR Party 
Secretary in May 2006, the TAR government Standing Committee's issuance 
of the TAR Implementing Measures for the ``Regulation on Religious 
Affairs'' in September 2006, and the State Administration for Religious 
Affairs issuance in July 2007 of the Measures on the Management of the 
Reincarnation of Living Buddhas in Tibetan Buddhism. ``Zhang Qingli 
Becomes New Party Chief of Tibet,'' Xinhua (Online), 29 May 07; 
``Xinjiang Communist Party Official Promoted to Acting Secretary of the 
Tibet Autonomous Region,'' CECC China Human Rights and Rule of Law 
Update, January 2006, 19; Tibet Autonomous Region Implementing Measures 
for the ``Regulation on Religious Affairs'' (Trial Measures) [Zizang 
zizhiqu shishi ``zongjiao shiwu tiaoli'' banfa (shixing)] [hereinafter 
TAR 2006 Measures], issued 19 September 06, effective 1 January 07; 
State Administration for Religious Affairs, Measures on the Management 
of the Reincarnation of Living Buddhas in Tibetan Buddhism [Zangchuan 
fojiao huofo zhuanshi guanli banfa], issued 13 July 07, effective 1 
September 07.
    \22\ For example, ``Chinese Foreign Ministry Says: We Hope the 
Dalai Will Treasure the Opportunity of Consultation, and Stop his 
Separatist and Sabotage Activities,'' Xinhua, 29 April 08 (Open Source 
Center, 29 April 08). Ministry of Foreign Affairs spokeswoman Jiang Yu 
said on April 29, ``We hope the Dalai will treasure the opportunity of 
consultation, stop his violent and criminal activities with concrete 
actions, stop his activities to interrupt and sabotage the Beijing 
Olympic Games, and stop his activities to split the motherland so as to 
create conditions for the next consultation.''
    \23\ ``Dalai Lama, Wolf in Human Shape,'' China Tibet News, 21 
March 08 (Open Source Center, 24 March 08).
    \24\ ``Unifying the Masses' Hearts and Will To Fight a People's War 
Against Separatism and To Maintain Stability: The Tibet Autonomous 
Region Holds a Video/Telephone Conference on Handling the `3.14 
Incident' and Maintaining the Region's Stability; Zhang Qingli Gives 
Important Speech,'' China Tibet News, 19 March 08 (Open Source Center, 
19 March 08).
    \25\ ``State Councilor and Minister of Public Security Meng Jianzhu 
Heads Central Work Team on Tibet Inspection,'' China Tibet News, 25 
March 08 (Open Source Center, 25 March 08). Meng Jianzhu said, ``[W]e 
must continue to deepen education in patriotism in the monasteries and 
temples, and unfold in depth there propaganda and education in the 
ethnic and religious policies and the legal system . . . .'' ``Hongyuan 
Begins `Maintaining Stable Thinking Among the Masses' Educational 
Campaign,'' Sichuan News, 27 March 08 (Open Source Center, 27 March 
08). OSC summary: officials in Hongyuan County began a campaign to show 
herdsmen and local farmers the ``truth'' of the March 14 events in 
Lhasa. ``Qiang Wei Stresses the Importance of Resolutely and 
Unswervingly Struggling Against Separatism, Safeguarding Stability, and 
Promoting Unity,'' Qinghai Daily, 29 March 08 (Open Source Center, 1 
April 08) (``We should continuously step up the education campaign and 
extensively reveal the true features of the Dalai clique in separating 
the motherland and sabotaging national unity. We should carry on legal 
system education with a great fanfare. We should make more efforts in 
providing public opinion guidance.''); Jill Drew, ``In Tibetan 
Monasteries, the Heavy Hand of the Party,'' Washington Post (Online), 6 
April 08 (``After widespread protests swept the Tibetan plateau last 
month, Chinese leaders responded with a combination of arrests, 
interrogations and vigorous education campaigns.''); Tibetan Centre for 
Human Rights and Democracy (Online), ``12 Monks of Dingri Shelkar 
Choedhe Monastery Arrested for Opposing the `Patriotic Re-education' 
Campaign,'' 31 May 08 (``The stipulated two-months' renewed ``Patriotic 
re-education'' campaign launched at the beginning of April following 
unprecedented protests across Tibetan plateau since 10 March, not only 
permeates the monastic institutions but also government employees, 
security forces, farmers, nomads, private entrepreneurs and educational 
institutions.'').
    \26\ See, for example, Woeser (Oezer), ``Woeser: Tibet Update (May 
1-6, 2008),'' China Digital Times (Online), last visited 4 June 08. 
April 30, Gonsar Monastery, Dege county, Ganzi (Kardze) TAP, Sichuan 
province: ``[T]he work team force the monks to sign their names in the 
official document entitled ``Expose and Criticize the Dalai Separatist 
Clique'', and also demanded each monk to hand in two photos to paste on 
the document.'' Woeser, ``Tibet Update (2),'' China Digital Times 
(Online), last visited 12 June 08. April 12, Ganzi TAP: officials told 
``religious leaders and other figures'' attending ``emergency 
meetings'' in Ganzi's 18 counties to sign documents ``opposing the 
Dalai Lama.''
    \27\ See, for example, ``Personalities From All Walks of Life in 
Qinghai Province Strongly Condemn Lhasa Violent Crime Incident,'' 
Qinghai Daily, 1 April 08 (Open Source Center, 7 April 08). ``Cadre 
conferences, meetings of villagers, seminars of non-Party personages, 
and seminars of religious figures have been convened in various 
locations in our province in recent days, to continue to expose and 
criticize the Dalai Lama clique's reactionary nature and its monstrous 
crimes which disrupt stability in Tibet.'' ``Update for Friday, 4 April 
08,'' Tibetan Government-in-Exile (Online), 4 April 08. April 2, 
Bathang Choede Monastery, Batang (Bathang) county, Ganzi (Kardze) TAP, 
Sichuan province: officials pressured 200 monks to sign a statement 
alleging that the Dalai Lama ``was responsible for inciting the recent 
demonstrations in Tibet.'' The monks refused to sign the document, 
resulting in an argument with officials that led to the detention of 
five monks, including abbot Jigme Dorje and disciplinarian Yeshe.
    \28\ ``China Publishes Evidences of Dalai Clique's Masterminding of 
Riots,'' Xinhua (Online), 1 April 08. ``Solid facts showed that the 
unrest in Lhasa, the capital of southwest China's Tibet Autonomous 
Region, was organized, premeditated, masterminded and instigated by the 
Dalai clique and its `Tibet independence' forces.'' ``Subsequently, the 
`Tibet independence' forces in the United States proposed the idea of 
the `Tibetan People's Uprising Movement.' Senior officials of the Dalai 
clique studied and approved the plan. They believed that 2008 would be 
their last chance to achieve `Tibet independence' and decided to use 
the `favorable opportunity' before the Olympics to stage sabotage 
activities in the Tibetan-inhabited areas in China.''
    \29\ Tibetan People's Uprising Movement (Online), ``Press Release: 
Launch of the Tibetan People's Uprising Movement,'' 4 January 08. TPUM 
was established in January 2008 as ``a new coordinated Tibetan 
resistance effort in the lead up to the 2008 Beijing Olympics.'' The 
alliance consists of five Tibetan organizations: the TYC, the Tibetan 
Women's Association, the Gu Chu Sum Movement of Tibet (an organization 
established by former Tibetan political prisoners), the National 
Democratic Party of Tibet, and the India chapter of Students for a Free 
Tibet. TYC President Tsewang Rigzin described TPUM as ``a unified 
movement to bring about an end to Chinese rule in Tibet.''
    \30\ Tibetan Youth Congress (Online), ``About Us,'' last visited 3 
June 08. The TYC was established in October 1970. Among the four 
``tasks'' assigned to TYC members are, ``To dedicate oneself to the 
task of serving one's country and people under the guidance of His 
Holiness the Dalai Lama, the Spiritual and Temporal Ruler of Tibet,'' 
and, ``To struggle for the total independence of Tibet even at the cost 
of one's life.'' (The TYC does not, however, accept the Dalai Lama's 
guidance on seeking ``genuine autonomy'' for ``Tibet'' under Chinese 
sovereignty, nor does the TYC expressly disavow the use of violence in 
the campaign for independence.)
    \31\ Office of His Holiness the Dalai Lama (Online), ``His 
Holiness's Middle Way Approach For Resolving the Issue of Tibet,'' last 
visited 3 June 08.
    \32\ Tibetan People's Uprising Movement (Online), ``Background,'' 
last visited 16 September 08.
    \33\ ``China Publishes Evidences of Dalai Clique's Masterminding of 
Riots,'' Xinhua. ``To implement the `Tibetan People's Uprising 
Movement,' the `Tibetan Youth Congress' and other `Tibet independence' 
organizations held two training classes on how to carry out violent, 
terrorist activities.''
    \34\ The English language version of the Xinhua report attributed 
the monks' actions to ``the Dalai Lama.'' The Chinese language version, 
however, attributed the monks' actions to ``the Dalai clique.'' 
Substituting ``Dalai Lama'' in the English language version for ``Dalai 
clique'' in the original Chinese version indicates the level of state-
run media interest in associating nominally ``terrorist'' events with 
the Dalai Lama, especially in international (English) reporting, 
whether or not there is a factual basis for doing so. ``Police in Tibet 
Arrest 16 Monks as Bombing Suspects,'' Xinhua (Online), 5 June 08; 
``Individual Monks in Changdu Area Carried Out Bombings To Echo the `14 
March' Incident. Public Security Organs in Tibet Cracked Three Cases in 
a Row and Daunted the `Tibet Independence' Forces,'' Xinhua, 5 June 08 
(Open Source Center, 6 June 08).
    \35\ ``Tibetans Jailed For Blasts,'' Radio Free Asia (Online), 2 
October 08. According to the article, the court sentenced four Oezer 
(Oser) Monastery monks and a total of five monks from Gonsar Monastery 
and Khenpa Lung Monastery to imprisonment for involvement in setting 
off a series of small explosions in Mangkang (Markham) county. An 
official told RFA that the blasts caused no casualties and minimal 
damage to government property.
    \36\ Terry Friel, ``Dalai Lama Rejects Tibetan Buddhist Praise of 
China,'' Reuters (Online), 29 December 05.
    \37\ ``Think Like a Mosquito--Lhasang,'' Phayul (Online), 25 
February 07; Tibetan Youth Congress (Online), ``Lhasang Tsering'' 
[short bio], last visited 2 August 07. Lhasang Tsering served as TYC 
President from 1986 to 1990.
    \38\ Office of His Holiness the Dalai Lama (Online), ``Statement of 
His Holiness the Dalai Lama to All Tibetans,'' 6 April 08.
    \39\ Ibid. On the Olympics, the Dalai Lama said, ``I have from the 
very beginning supported the holding of these Games in Beijing. My 
position on this remains unchanged. I feel the Tibetans should not 
cause any hindrance to the Games.''
    \40\ Office of the Special Coordinator for Tibetan Issues, U.S. 
Department of State, Report on Tibet Negotiations, April 2008. The 
Report is mandated by Section 611 of the Foreign Relations 
Authorization Act, 2003.
    \41\ Ibid.
    \42\ Ibid.
    \43\ H.R. Con. Res. 196, 110th Cong. (2007) (``Authorizing the use 
of the Rotunda and grounds of the Capitol for a ceremony to award the 
Congressional Gold Medal to Tenzin Gyatso, the Fourteenth Dalai 
Lama.'') The House Concurrent Resolution provided for the award 
ceremony to take place in the Capitol Rotunda, and for the Capitol 
grounds to be available for a public event sponsored by the 
International Campaign for Tibet.
    \44\ S. 2784, Fourteenth Dalai Lama Congressional Gold Medal Act, 
The Library of Congress (Online), enacted 27 September 06; 
International Campaign for Tibet (Online), ``U.S. Congress Passes Bill 
To Award the Dalai Lama the Congressional Gold Medal: Bill Cosponsored 
by 387 Members of U.S. House and Senate,'' 13 September 06. The bill 
was introduced as S. 2782 by Senators Dianne Feinstein and Craig 
Thomas, and as H.R. 4562 by Representatives Ileana Ros-Lehtinen and Tom 
Lantos.
    \45\ ``Dalai Lama's Envoys To Begin China Visit on May 3,'' 
Congressional-Executive Commission on China (Online), 4 May 08. The 
report lists the six previous sessions of dialogue: September 2002, 
May-June 2003, September 2004, June-July 2005, February 2006, and June-
July 2007. All of them took place in China except in 2005, when the 
envoys met their counterparts in Bern, Switzerland.
    \46\ ``Statement by Special Envoy of His Holiness the Dalai Lama, 
Kasur Lodi Gyaltsen Gyari,'' Tibetan Government-in-Exile (Online), 8 
May 08.
    \47\ Ibid.
    \48\ Ibid.
    \49\ Ibid.
    \50\ Office of His Holiness the Dalai Lama (Online), ``Statement of 
His Holiness the Dalai Lama to All Tibetans,'' 6 April 08.
    \51\ ``Full Transcript of Interview with the Dalai Lama,'' 
Financial Times (Online), 25 May 08. In response to the question, 
``What are your priorities for these talks? '' the Dalai Lama said, 
``Stop the arrests, and release [the arrested].'' To the question, 
``[I]f there were one or two gestures or concrete gestures that the 
Chinese could make, what would they be, to pass your test? '' the Dalai 
Lama responded, ``Then stop, inside Tibet, arresting and torture. This 
must stop. And then they should bring proper medical facilities. And 
most important, international media should be allowed there, should go 
there, and look, investigate, so the picture becomes clear.''
    \52\ ``President Hu: Next Contact With Dalai Lama To Be Held at 
Appropriate Time,'' Xinhua (Online), 7 May 08.
    \53\ ``Statement by Special Envoy of His Holiness the Dalai Lama, 
Kasur Lodi Gyaltsen Gyari,'' Tibetan Government-in-Exile (Online), 5 
July 08.
    \54\ ``The Responsible Person of the Central United Front Work 
Department Answers Xinhua Reporter's Questions on the Recent Contact 
with Dalai Lama's Personal Representatives,'' Xinhua, 6 July 08 (Open 
Source Center, 7 July 08).
    \55\ ``China Demands That the Dalai Lama Fulfill Additional 
Preconditions to Dialogue,'' Congressional-Executive Commission on 
China (Online), 30 July 08. The Dalai Lama has expressed support for 
the 2008 Beijing Olympic Games; he counsels Tibetans not to engage in 
violent activity; he does not lead the Tibetan Youth Congress (which 
does not support the Dalai Lama's Middle Way Approach); he seeks 
``genuine autonomy,'' not independence. The Dalai Lama's Special Envoy 
said in his July 5, 2008, statement that the envoys ``categorically 
rejected the Chinese attempt to label [the TYC] as a violent and 
terrorist organization.''
    \56\ ``The Responsible Person of the Central United Front Work 
Department Answers Xinhua Reporter's Questions on the Recent Contact 
with Dalai Lama's Personal Representatives,'' Xinhua. ``Comrade Du 
Qinglin raised in clear-cut terms a requirement of `four no support's' 
for Dalai; in other words, if Dalai Lama truly wished to do something 
useful for the country, the nation, and the well-being of the Tibetan 
people in his remaining years, he should give an open and explicit 
promise and take corresponding actions in the forms of giving no 
support for activities that aimed to disturb and sabotage the Beijing 
Olympic Games, giving no support for and making no attempt to conspire 
and incite violent criminal activities, giving no support for and 
taking earnest steps to check the violent terrorist activities of the 
`Tibetan Youth Association,' and giving no support for any 
[propositions] or activities that sought to achieve `Tibet 
independence' and split the motherland.''
    \57\ ``Beijing Holds Talks With Dalai's Representatives,'' Xinhua, 
reprinted in China Daily (Online), 3 July 08.
    \58\ ``China Demands That the Dalai Lama Fulfill Additional 
Preconditions to Dialogue,'' Congressional-Executive Commission on 
China. For example, Chinese government pressure on the Dalai Lama to 
take action against ``propositions or activities'' in support of 
Tibetan independence is important because Chinese government targets 
are not limited to plans or activities that include violence--Chinese 
targets include a point of view and the peaceful expression of it. Many 
of the countries where Tibetans live, including India, have 
constitutions that protect the freedom of speech and governments that 
strive to respect that freedom.
    \59\ ``The Responsible Person of the Central United Front Work 
Department Answers Xinhua Reporter's Questions on the Recent Contact 
with Dalai Lama's Personal Representatives,'' Xinhua.
    \60\ ``Statement by Special Envoy of His Holiness the Dalai Lama, 
Kasur Lodi Gyaltsen Gyari.'' Tibetan Government-in-Exile.
    \61\ ``Tibet Update (1),'' China Digital Times (Online), last 
visited on 18 June 08. Drepung monks ``joined the peaceful 
demonstration, demanding the freedom for religious belief.'' ``Ethnic 
Unrest Continues in China,'' New York Times (Online), 5 April 08. 
``Tibet was shaken by protests last month by Buddhist monks demanding 
religious freedoms.''
    \62\ Some of the protests reportedly involved hundreds or even 
thousands of monks. ``The Dalai Clique's Scheme To Undermine Tibet's 
Social Stability Is Doomed to Failure,'' Xinhua, 16 March 08 (Open 
Source Center, 17 March 08). Reports that 300 Drepung Monastery monks 
protested in Lhasa on March 10. ``Chinese Police Fire Tear-Gas at 
Protesting Tibetan Monks,'' Radio Free Asia (Online), 12 March 08. 
Reports that an estimated 500-600 Sera Monastery monks protested in 
Lhasa on March 11. International Campaign for Tibet (Online), 
``Protests Spread Throughout Tibet: Thousands Gather in Towns and 
Monasteries,'' 16 March 08. Reports that more than 1,000 Kirti 
Monastery monks protested in Aba county (Aba Tibetan and Qiang 
Autonomous Prefecture, Sichuan Province) on March 16. (Rioting also 
took place at the same location on the same date.)
    \63\ See, e.g., Tibetan Centre for Human Rights and Democracy 
(Online), ``Provisional List of Known Tibetan Arrestees--Updated on 25 
April [2008].'' Of the 518 persons named on the list, 232 are monks 
(none are nuns). (Chinese authorities reportedly detained a substantial 
number of monks and nuns in the period following the publication date 
of the TCHRD list.)
    \64\ See, e.g., Jim Yardley, ``Tibetans Clash With Chinese Police 
in 2nd City,'' New York Times (Online), 16 March 08. According to a 
Tibetan in India who spoke by phone to Tibetan protesters in Xiahe 
county, Gansu province, thousands of protesters on March 16 shouted 
slogans including, ``The Dalai Lama must return to Tibet.'' Tibetan 
Centre for Human Rights and Democracy (Online), ``Scores of Tibetans 
Arrested for Peaceful Protest in Lhasa,'' 11 March 08. On March 10 in 
Guinan (Mangra) county, Qinghai province, a few hundred protesters 
shouted slogans calling for the Dalai Lama to return to Tibet. Tibetan 
Centre for Human Rights and Democracy (Online), ``Around 40 Middle 
School Students Arrested in Marthang,'' 17 March 08. Approximately 100 
Tibetan middle school students in Hongyuan (Kakhog, or Marthang) 
county, Sichuan Province demonstrated inside the school compound, 
calling for the return of the Dalai Lama to Tibet.
    \65\ See, e.g., Tibetan Centre for Human Rights and Democracy 
(Online), ``Protest Erupts After Prayer for Deceased in Drango 
County,'' 25 March 08. More than 400 monks in Luhuo (Draggo) county, 
Ganzi TAP, Sichuan province, shouted slogans on March 25 including, 
``Release [the] Panchen Lama.'' Tibetan Centre for Human Rights and 
Democracy (Online), ``Hundreds of Tibetans Protested in Chentsa, Malho 
`TAP,' Qinghai Province,'' 25 March 08. Hundreds of Tibetans protesting 
on March 22 in Jianza (Chentsa) county, Huangnan (Malho) TAP, Qinghai 
province, carried photographs of the Dalai Lama and Panchen Lama, and 
shouted slogans including, ``Release the eleventh Panchen Lama Erdeni 
Gedun Choekyi Nyima.'' ``Latest Updates on Tibet Demonstrations,'' 
Radio Free Asia (Online), 25 March 08. More than 1,000 monks and other 
Tibetans shouted slogans on March 18 in Xiahe (Sangchu) county, Gannan 
(Kanlho) TAP, Gansu province, including, ``Release the Panchen Lama.''
    \66\ See, e.g., ``Tibet Update (1),'' China Digital Times. The 
Drepung monks ``joined the peaceful demonstration, demanding the 
freedom for religious belief.'' In another protest, several hundred 
Labrang Tashikhyil monks and ordinary citizens staged a protest march 
on March 14 and shouted slogans including, ``Return us to religion 
freedom.'' Tibetan Centre for Human Rights and Democracy (Online), 
``China Detains Drakar and Gaden Choeling Nuns in Kardze,'' 17 May 08. 
Two nuns were detained for calling for religious freedom, among other 
things. The detentions sparked a larger protest resulting in the 
detention of at least 10 more nuns. ``Tibet Monks Disrupt Tour by 
Journalists,'' Associated Press, reprinted in New York Times (Online), 
27 March 08. On March 27, a group of Jokhang Temple monks shouted that 
there was no religious freedom when a group of international 
journalists on a government-handled tour visited the temple.
    \67\ ``A Reader for Advocating Science and Technology and Doing 
Away With Superstitions'' (translated by International Campaign for 
Tibet in When the Sky Fell to Earth: The New Crackdown on Buddhism in 
Tibet, 2004). ``Conducting patriotic education among the monks and nuns 
in the monasteries is an important aspect of strengthening the 
management of religious affairs by the government. . . . Dalai's bloc 
has never stopped penetrating and engaging in splittist activities in 
our region under the support of international antagonistic forces. . . 
. The monks and nuns should be religious professionals who love the 
country, love religion, obey the discipline, and abide by the law.''
    \68\ See, e.g., Tibetan Centre for Human Rights and Democracy 
(Online), ``12 Monks of Dingri Shelkar Choedhe Monastery Arrested for 
Opposing the `Patriotic Re-education' Campaign,'' 31 May 08; 
International Campaign for Tibet (Online), ``More Than 80 Nuns Detained 
After Peaceful Protests Continue in Kham,'' 30 May 08; Tibetan Centre 
for Human Rights and Democracy (Online), ``China Arrests 55 Nuns of 
Pang-ri Nunnery for Protesting,'' 17 May 08; Tibetan Centre for Human 
Rights and Democracy (Online), ``China Arrests 16 Monks for Defying 
`Patriotic Re-education' '' 15 May 08; Tibetan Centre for Human Rights 
and Democracy (Online), ``Monks of Drepung Monastery Detained During 
Patriotic Education Campaign,'' 14 April 08.
    \69\ ``Chronology of Events Surrounding Recognition of 11th Panchen 
Lama,'' Tibetan Government-in-Exile, reprinted in World Tibet Network 
News (Online), 6 August 02.
    \70\ P. Jeffrey Hopkins, ``The Identification of the Eleventh 
Panchen Lama,'' University of Virginia, Center for South Asian Studies 
Newsletter, Fall 1995.
    \71\ UN Commission on Human Rights (Online), ``Summary of Cases 
Transmitted to Governments and Replies Received,'' 27 March 06, 24-25. 
The Special Rapporteur on Freedom of Religion or Belief sent a request 
to the Chinese government for information about Gedun Choekyi Nyima on 
June 9, 2005. The Chinese government provided a response on September 
7, 2005.
    \72\ ``Official Urges Dalai Lama To Abandon Secessionist,'' Xinhua, 
reprinted in China Daily (Online), 29 July 07.
    \73\ ``It Is Both Illegal and Invalid for the Dalai Lama to 
Universally Identify the Reincarnated Soul Boy of the Panchen Lama,'' 
People's Daily, 1 December 95 (Open Source Center, 1 December 95).
    \74\ See, e.g., Tibetan Centre for Human Rights and Democracy, 
``Protest Erupts After Prayer for Deceased in Drango County.'' More 
than 400 monks in Luhuo (Draggo) county, Ganzi TAP, Sichuan province, 
shouted slogans on March 25 including, ``Release [the] Panchen Lama.'' 
Tibetan Centre for Human Rights and Democracy, ``Hundreds of Tibetans 
Protested in Chentsa, Malho `TAP,' Qinghai Province.'' Hundreds of 
Tibetans protesting on March 22 in Jianza (Chentsa) county, Huangnan 
(Malho) TAP, Qinghai province, carried photographs of the Dalai Lama 
and Panchen Lama, and shouted slogans including, ``Release the eleventh 
Panchen Lama Erdeni Gedun Choekyi Nyima.'' ``Latest Updates on Tibet 
Demonstrations,'' Radio Free Asia. More than 1,000 monks and other 
Tibetans shouted slogans on March 18 in Xiahe (Sangchu) county, Gannan 
(Kanlho) TAP, Gansu province, including, ``Release the Panchen Lama.''
    \75\ ``List of Alternate Members of 17th CPC Central Committee,'' 
Xinhua (Online), 21 October 07.
    \76\ ``How Was the Problem Between Religion and Socialism Cracked--
Exclusive Interview With Religious Affairs Administration Director Ye 
Xiaowen,'' Southern Weekend, 13 March 08 (Open Source Center, 10 April 
08).
    \77\ Ministry of Foreign Affairs (Online), ``Did Tibet Become an 
Independent Country after the Revolution of 1911? '' 15 November 00. 
``In 1792 the twenty-nine-article Imperial Ordinance was issued. It 
stipulated in explicit terms for the reincarnation of the Living 
Buddhas in Tibet as well as the administrative, military and foreign 
affairs.'' (The edict sought to impose Qing control over religious, 
administrative, military, fiscal, commercial, and foreign affairs. The 
edict demanded that the Amban, ``Resident Official'' representing the 
imperial court, would have equal status to the Dalai and Panchen Lamas, 
and function as the supervisor of the Tibetan administration.)
    \78\ ``Chinese-Installed Panchen Lama Pledges To Meet Communist 
Party Expectations,'' CECC China Human Rights and Rule of Law Update, 
January 2006, 3.
    \79\ PRC Criminal Law, enacted 1 July 79, amended 14 March 97, 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, art. 103 (``organize, plot or carry out the scheme of 
splitting the State or undermining unity of the country''; ``incites 
others to split the State or undermine unity of the country'').
    \80\ Tibetan and Himalayan Digital Library (Online), ``The 
Periodization of Tibetan History: General Chronology,'' last visited 18 
June 08. Sonam Gyatso (1543-1588), the Third Dalai Lama, was the first 
person to have the title. The first and second Dalai Lamas were 
recognized posthumously.
    \81\ CECC, 2007 Annual Report, 10 October 07, 191-197.
    \82\ The Dalai Lama is the foremost religious teacher of the Gelug 
tradition of Tibetan Buddhism, whose adherents are more numerous than 
those of other traditions of Tibetan Buddhism such as the Nyingma, 
Kargyu, and Sakya.
    \83\ Tibet Autonomous Region Implementing Measures for the 
``Regulation on Religious Affairs'' (Trial Measures) [Zizang zizhiqu 
shishi ``zongjiao shiwu tiaoli'' banfa (shixing)] [hereinafter TAR 2006 
Measures], issued 19 September 06, effective 1 January 07.
    \84\ State Administration for Religious Affairs, Measures on the 
Management of the Reincarnation of Living Buddhas in Tibetan Buddhism 
[Zangchuan fojiao huofo zhuanshi guanli banfa], issued 13 July 07, 
effective 1 September 07.
    \85\ ``Tibet Procuratorial Organs Carry Out `Anti-Secession 
Struggle' Intensively,'' Tibet Daily, 13 February 08 (Open Source 
Center, 14 March 08).
    \86\ Ibid.
    \87\ Measures for Dealing Strictly With Rebellious Monasteries and 
Individual Monks and Nuns [hereinafter Ganzi Measures], Order from the 
People's Government of Ganzi Tibetan Autonomous Prefecture, No. 2, 
issued 28 June 08 with immediate effect, translated from Tibetan 
language in International Campaign for Tibet (Online), ``New Measures 
Reveal Government Plan To Purge Monasteries and Restrict Buddhist 
Practice,'' 30 July 08.
    \88\ International Campaign for Tibet (Online), ``Tibet at a 
Turning Point: The Spring Uprising and China's New Crackdown,'' 5 
August 08, 3, 22-23. ICT states that the actual number of protests is 
certain to be higher than 125.
    \89\ Ibid.
    \90\ Sichuan Province Party Committee Policy Research Office, 
``Improve Capacity to Resolve Minority Issues, Make Efforts to Build a 
Harmonious Ganzi,'' 10 August 05. According to the Sichuan Province 
Party Committee Policy Research Office, August 10, 2005 report, there 
are 515 Tibetan Buddhist monasteries in Ganzi Prefecture and 37,916 
monks and nuns, which represent 4.49 percent of the prefecture's total 
population. ``Facts and Figures of Tibetan Development,'' Xinhua 
(Online), 27 March 08. In comparison, there are 46,000 Tibetan Buddhist 
monks and nuns in the entire TAR. CECC Staff Interview, September 2003. 
According to a Chinese official, there are approximately 21,000 monks 
and nuns in Qinghai province.
    \91\ The current period of Tibetan political activism began on 
September 27, 1987, when 21 monks from Drepung Monastery staged a 
peaceful protest march in Lhasa, calling for Tibetan freedom. It was 
the first Tibetan political protest in China in the post-Cultural 
Revolution period that was internationally reported.
    \92\ As of October 31, 2008, the Commission's Political Prisoner 
Database (PPD) contained records of 2,534 Tibetan political prisoners 
detained or imprisoned since 1987. Of those 2,534 Tibetan political 
prisoners and detainees, 543 are known or believed to be currently 
detained or imprisoned. The rest are known or believed to have been 
released or to have escaped or died. Of the 2,534 Tibetans who became 
political prisoners or detainees since 1987, 321 of them were residents 
of Ganzi Tibetan Autonomous Prefecture (TAP), according to PPD 
information. Of the 321 Tibetan residents of Ganzi TAP who became 
political prisoners or detainees since 1987, 199 of them are known or 
believed to be currently detained or imprisoned. Of the 199 Tibetan 
residents of Ganzi TAP who are known or believed to be currently 
detained or imprisoned, 179 of them have been detained during the 
period beginning March 10, 2008. Due to the large number of detentions 
of Tibetan protesters since March 10, 2008, and a lack of complete 
information about the detentions, the PPD does not contain information 
on a large number of Tibetans detained since that date.
    \93\ International Campaign for Tibet, ``New Measures Reveal 
Government Plan To Purge Monasteries and Restrict Buddhist Practice.''
    \94\ Regulation on Religious Affairs (RRA) [Zongjiao shiwu tiaoli], 
issued 30 November 04, translated on the Web site of China Elections 
and Governance.
    \95\ Measures on the Management of the Reincarnation of Living 
Buddhas in Tibetan Buddhism, issued 13 July 07.
    \96\ Ganzi Measures, art. 7, provides for the demolition of 
monastic residential quarters under certain circumstances. Ganzi 
Measures, art. 9, provides for revocation of a monastery or nunnery's 
registration followed by closure of the monastery or nunnery under 
certain circumstances.
    \97\ Ganzi Measures, art. 12, provides for stripping a trulku of 
``the right to hold the incarnation lineage.''
    \98\ PRC Constitution, art. 4 (``The people of all nationalities 
have the freedom to use and develop their own spoken and written 
languages, and to preserve or reform their own ways and customs.''), 
arts. 112-122.
    \99\ PRC Regional Ethnic Autonomy Law [hereinafter REAL], enacted 
31 May 84, amended 28 February 01. The REAL's Preamble asserts that the 
ethnic autonomy system ``reflects the state's full respect for and 
guarantee of ethnic minorities' right to administer their internal 
affairs'' and gives ``full play to ethnic minorities' enthusiasm for 
being masters over their own affairs.''
    \100\ REAL, Preamble. ``Regional ethnic autonomy reflects the 
state's full respect for and guarantee of ethnic minorities' right to 
administer their internal affairs and its adherence to the principle of 
equality, unity and common prosperity for all nationalities.''
    ``Regional ethnic autonomy has played an enormous role in giving 
full play to ethnic minorities' enthusiasm for being masters over their 
own affairs, in developing among them a socialist relationship of 
equality, unity and mutual assistance, in consolidating the unification 
of the country and in promoting socialist construction in the ethnic 
autonomous areas and the rest of the country.''
    \101\ State Council Information Office, White Paper on Building of 
Political Democracy in China [Zhongguo de minzhuzhengzhi jianshe], 19 
October 05. ``Democratic centralism is the fundamental principle of 
organization and leadership of state power in China. When democratic 
centralism is practiced, it requires that we give full play to 
democracy and discuss matters of concern collectively, so that people's 
wishes and demands are fully expressed and reflected. Then, all the 
correct opinions are pooled, and decisions are made collectively so 
that the people's wishes and demands are realized and met. The practice 
of democratic centralism also requires that `the majority be respected 
while the minority is protected.' We are against the anarchic call for 
`democracy for all,' and against anybody placing his own will above 
that of the collective.''
    \102\ REAL, art. 7. ``Institutions of self-government in ethnic 
autonomous areas shall place the interests of the state as a whole 
above all else and actively fulfill all tasks assigned by state 
institutions at higher levels.''
    \103\ PRC Constitution, art. 62(12), 89(15). (Only the National 
People's Congress (NPC) and State Council have the constitutional 
authority to approve the establishment of autonomous regions, 
prefectures, and counties, and to alter their boundaries.)
    \104\ REAL, art. 19. ``The people's congresses of ethnic autonomous 
areas shall have the power to enact self-governing regulations and 
separate regulations in the light of the political, economic and 
cultural characteristics of the nationality or nationalities in the 
areas concerned. . . .'' PRC Constitution, art. 116. ``People's 
congresses of national autonomous areas have the power to enact 
autonomy regulations and specific regulations in the light of the 
political, economic and cultural characteristics of the nationality or 
nationalities in the areas concerned.''
    \105\ PRC Legislation Law, enacted 15 March 00, art. 9. ``In the 
event that no national law has been enacted in respect of a matter 
enumerated in Article 8 hereof, the [NPC] and the Standing Committee 
thereof have the power to make a decision to enable the State Council 
to enact administrative regulations in respect of part of the matters 
concerned for the time being, except where the matter relates to crime 
and criminal sanctions, the deprivation of a citizen's political 
rights, compulsory measure and penalty restricting the personal freedom 
of a citizen, and the judicial system.''
    \106\ REAL, art. 20. ``If a resolution, decision, order, or 
instruction of a state agency at a higher level does not suit the 
actual conditions in an ethnic autonomous area, an autonomous agency of 
the area may report for the approval of that higher level state agency 
to either implement it with certain alterations or cease implementing 
it altogether. . . .''
    \107\ PRC Legislation Law, art. 66. ``. . . An autonomous decree or 
special decree may vary the provisions of a law or administrative 
regulation, provided that any such variance may not violate the basic 
principles thereof, and no variance is allowed in respect of any 
provision of the Constitution or the Law on Ethnic Area Autonomy and 
provisions of any other law or administrative regulations which are 
dedicated to matters concerning ethnic autonomous areas.''
    \108\ Andrew Martin Fischer, ``From Labour Polarisation to Urban 
Employment Exclusion,'' in A Theory of Polarisation, Exclusion and 
Conflict within Disempowered Development: The Case of Contemporary 
Tibet in China (Thesis with London School of Economics, November 2007). 
Dr. Fischer conducted fieldwork in the TAR and Qinghai, Gansu, and 
Sichuan provinces.
    \109\ Ibid., 30-31.
    \110\ TAR Regulations on the Study, Use and Development of the 
Tibetan Language, adopted July 9, 1987, by the Fifth Session of the 
Fourth TAR People's Congress, and amended on May 22, 2002, by the Fifth 
Session of the Seventh TAR People's Congress, arts. 3-5. In 2002, the 
TAR People's Congress revised the 1987 TAR Regulations on the Study, 
Use, and Development of the Tibetan Language, ending the precedence of 
the Tibetan language by authorizing the use of ``either or both'' of 
Mandarin and Tibetan languages in most areas of government work.
    \111\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, Country Reports on Human Rights Practices--2007, China 
(includes Tibet, Hong Kong, and Macau), 11 March 08. ``In middle and 
high schools--even some officially designated as Tibetan schools--
teachers often used Tibetan only to teach classes in Tibetan language, 
literature, and culture and taught all other classes in Chinese.''
    \112\ CECC, 2006 Annual Report, 20 September 06, 169, citing Ma 
Rong and Tanzen Lhundup, ``Temporary Migrants in Lhasa in 2005,'' 
Section IV(4.8), Table 14. Based on a survey published by Chinese 
academics Ma Rong and Tanzen Lhundup, the rate of illiteracy among 
Tibetan migrants (32.3 percent) was almost 10 times higher than for Han 
migrants (3.3 percent), and Han migrants were better prepared to secure 
jobs that require skills learned in junior or senior middle school. Of 
the migrants surveyed, Han reached junior or senior middle school at 
about twice the rate of Tibetans: 53.7 percent of Han compared to 26 
percent of Tibetans reached junior middle school, and 19.4 percent of 
Han compared to 9 percent of Tibetans reached senior middle school.
    \113\ Andrew Martin Fischer, ``Educating for Exclusion in Western 
China: Structural and Institutional Foundations of Conflict in the 
Tibetan Areas of Qinghai,'' CRISE Working Paper, Oxford: Centre for 
Research on Inequality, Security and Ethnicity, Queen Elizabeth House, 
2008 (forthcoming). Dr. Fischer conducted field work in Qinghai 
province.
    \114\ Li Dezhu, ``Large-Scale Development of Western China and 
China's Nationality Problem,'' Seeking Truth, 15 June 00 (Open Source 
Center, 15 June 00). Li Dezhu (Li Dek Su) addresses the social and 
ethnic implications of the program that Jiang Zemin launched in 1999. 
Li states that the program is intended to ``accelerate economic and 
social development of the western region and the minority nationality 
regions in particular.''
    \115\ ``Qinghai-Tibet Railway Ready for Operation on July 1,'' 
Xinhua (Online), 29 June 06. Zhu Zhensheng, the vice director of an 
office managing the railway, said that the railway startup is one year 
ahead of schedule due to ``good construction, environment, and safety 
conditions.''
    \116\ ``Qinghai-Tibet Railway Statistics Add to Confusion, Mask 
Impact on Local Population,'' CECC China Human Rights and Rule of Law 
Update, February 2008, 4.
    \117\ ``Province To Be Transport Hub,'' China Daily (Online), 23 
January 08. Sichuan province Governor Jiang Jufeng and Party Secretary 
Liu Qibao signed an agreement on January 10, 2008, with Minister of 
Railways Liu Zhijun to include the ``Sichuan-Tibet railway'' in the 
national railway network plan.
    \118\ Ibid.
    \119\ ``Qinghai-Tibet Railway To Get Six New Lines,'' China Daily 
(Online), 17 August 08. ``The six new tracks include one from Lhasa to 
Nyingchi [Linzhi] and one from Lhasa to Xigaze [Rikaze], both in the 
Tibet autonomous region. Three tracks will originate from Golmud in 
Qinghai province and run to Chengdu in Sichuan province, Dunhuang in 
Gansu province, and Kuerle [Ku'erle] of the Xinjiang Uygur Autonomous 
Region. The sixth will link Xining, capital of Qinghai, with Zhangye in 
Gansu.''
    \120\ CECC China Human Rights and Rule of Law Update, September 
2006, 14; ``Government Announces Extension of Qinghai-Tibet Railway to 
Rikaze,'' Congressional-Executive Commission on China (Online), 28 
August 06.
    \121\ CECC staff map analysis. A more northerly Golmud-Chengdu 
route could traverse southern portions of Hainan (Tsolho) and Huangnan 
(Malho) TAPs in Qinghai province and Gannan (Kanlho) TAP in Gansu 
province before entering Aba Tibetan and Qiang Autonomous Prefecture in 
Sichuan province.
    \122\ Tabulation on Nationalities of 2000 Population Census of 
China, Department of Population, Social, Science and Technology 
Statistics, National Bureau of Statistics, and Department of Economic 
Development, State Ethnic Affairs Commission (Beijing: Ethnic 
Publishing House, September 2003), Table 10-4. Based on official 2000 
census data, Tibetans made up 91.6 percent of the Guoluo TAP population 
(126,395 Tibetans among 137,940 total population) and 97.1 percent of 
the Yushu TAP population (255,167 Tibetans among 262,661 total 
population). In Ganzi TAP's three northernmost counties, Dege, Seda 
(Serthar), and Shiqu (Sershul), Tibetans made up 96.5 percent of the 
population (162,974 Tibetans among 168,928 total population). In three 
of the northernmost Aba Tibetan and Qiang Autonomous Prefecture 
counties--Aba, Ruo'ergai (Dzoege), and Hongyuan (Marthang, or Kakhog)--
Tibetans made up 88 percent of the population (145,706 Tibetans among 
165,656 total population).
    \123\ ``Tibet Plans Huge Industrial Investment,'' Xinhua (Online), 
5 September 08. According to the Xinhua report: ``Industrial 
development in Tibet had remained inactive for a long time and the 
sector only accounted for 7.5 percent of the region's overall gross 
domestic product last year, official statistics showed. The 22 projects 
are expected to speed up development of other industrial fields and the 
comprehensive economic growth.''
    \124\ Ibid. According to the report, of the 21.17 billion yuan 
total allocated to the 22 projects, ``the mining sector will absorb 
15.9 billion yuan and the industrial zones will take 3.45 billion 
yuan.''
    \125\ Ibid.
    \126\ ``Qinghai-Tibet Railway Transports 5.95 Mln Tourists,'' 
Xinhua (Online), 8 February 08; CECC, 2006 Annual Report, 167. The 33 
billion yuan construction cost was approximately US$4.12 billion in 
2006.
    \127\ Human Rights Watch (Online), `` `No One Has the Liberty To 
Refuse'--Tibetan Herders Forcibly Relocated in Gansu, Qinghai, Sichuan, 
and the Tibet Autonomous Region,'' 11 June 07.
    \128\ For example, incidents of political protest were reported in 
nomadic areas such as Banma (Pema), Jiuzhi (Chigdril), and Dari 
(Darlag) counties in Guoluo (Golog) TAP, Qinghai province. ``Latest 
Updates on Tibet Demonstrations,'' Tibetan Government-in-Exile 
(Online), 26 March 08. Banma county: ``After the arrival and the 
subsequent tight restrictions by Chinese military forces in Pema 
County, a protest was held during which the people demanded concrete 
results in the Sino-Tibetan dialogue. The same evening in Panchen, 
Pangrue and Markhog villages, Tibetans held peaceful demonstrations.'' 
``Latest Updates on Tibet Demonstrations,'' Tibetan Government-in-Exile 
(Online), 23 March 08. Jiuzhi county: ``Around 500 monks and lay people 
from Palyul village are holding a sit-down on a hill-top to demand that 
Karwang Nyima Rinpoche (Dharthang Monastery head) not be harassed by 
the Chinese military. The people have also demanded the United Nations, 
U.S. and other countries intervene to resolve the issue.'' ``Latest 
Updates on Tibet Demonstrations,'' Tibetan Government-in-Exile 
(Online), 22 March 08. Dari county: ``Around 200 protesters (including 
many horsemen) held protests in Toema and Meyma villages.''
    \129\ The current period of Tibetan political activism began on 
September 27, 1987, when 21 monks from Drepung Monastery staged a 
peaceful protest march in Lhasa, calling for Tibetan freedom. It was 
the first Tibetan political protest in China in the post-Cultural 
Revolution period that was internationally reported.
    \130\ Tibetan Centre for Human Rights and Democracy (Online), 
``Tensions Are High as the Olympic Torch Arrives in Lhasa,'' 20 June 
08. TCHRD reports that it ``has recorded the arrests or arbitrary 
detention of more than 6,500 Tibetans.'' (The report provides no 
information about whether or not, and to what extent, this figure 
includes more than 4,000 Tibetans whom official Chinese news media 
reported surrendered or were detained by police in connection to 
alleged rioting.)
    \131\ ``Latest Casualty Figures in Tibet,'' Tibetan Government-in-
Exile (Online), 21 August 08. ``Update on Death Toll from Tibet 
Demonstrations,'' Tibetan Government-in-Exile (Online), 26 March 08. 
The report lists the first 40 names published by the TGiE of Tibetans 
allegedly killed by Chinese security forces.
    \132\ Tibetan Centre for Human Rights and Democracy, ``Tensions Are 
High as the Olympic Torch Arrives in Lhasa.''
    \133\ ``Update on Tibet, 1 May 2008,'' Tibetan Government-in-Exile 
(Online), 1 May 08. The report alleges that on March 28, Chinese 
security forces cremated ``around 83 corpses'' in a crematorium in 
Duilongdeqing county near Lhasa in an attempt to destroy ``evidence 
related to the recent protests.'' The report described the corpses as 
``dead bodies of people who have been killed since the March 14 protest 
in Tibet,'' but did not disclose how the location, time, or cause of 
any of the deaths was established reliably.
    \134\ ``Update on Tibet Demonstration,'' Tibetan Government-in-
Exile (Online), 16 March 08.
    \135\ ``Governor Denies Use of Lethal Force in Lhasa Riot,'' 
Xinhua, reprinted in China Daily (Online), 17 March 08. ``Throughout 
the process, [security forces] did not carry or use any destructive 
weapons, but tear gas and water cannons were employed,'' Jampa Phuntsog 
told reporters in Beijing.
    \136\ ``Complete One-Week Update on Tibet Protests,'' Tibetan 
Government-in-Exile (Online), 18 March 08. The TGiE reports 3 Tibetans 
shot and killed and 10 others shot and injured.
    \137\ Tibetan Centre for Human Rights and Democracy (Online), 
``Middle School Student Shot Dead in Ngaba County,'' 19 March 08. ``At 
least 23 people including as young as 16 years old student, Lhundup 
Tso, were confirmed dead following Chinese Armed police shot many 
rounds of live ammunitions into the protesters . . . .''
    \138\ International Campaign for Tibet (Online), ``Monks, Nomads 
Protest as Demonstrations Spread Across Entire Tibetan Plateau,'' 19 
March 08. On March 16 protesters stoned government offices and burned a 
police station and vehicles before 11 truckloads of security personnel 
``suppressed the protests.'' ``The number of casualties was unclear, 
although one source that could not be confirmed indicated there could 
be as many as 19 deaths.'' ``Latest Update on Tibet Protests,'' Tibetan 
Government-in-Exile (Online), 18 March 08. In a report dated March 18, 
and beneath the subheading ``18th March, 2008,'' the TGiE report 
states, ``During the protest in Machu County that continued from 
yesterday, People's Armed Police (PAP) shot dead nineteen peaceful 
protesters this morning as confirmed by a source.'' TibetInfoNet 
(Online), `` `The World Will Not Look Away.' Demonstrations in Amdo 
Machu and Region,'' 19 March 08. TibetInfoNet, like the ICT report, 
reported that the protest took place on March 16, resulted in 
significant property destruction, and was suppressed by 11 truckloads 
of security personnel. But, according to TibetInfoNet, no casualties 
were reported.
    \139\ Tibetan Centre for Human Rights and Democracy (Online), ``At 
Least Three Tibetans Shot Dead in Kardze Protest,'' 18 March 08. 
According to the report, security forces firing indiscriminately shot 
and killed three Tibetans and injured 15 more when hundreds of Tibetans 
gathered in the town market and shouted slogans calling for 
independence and the Dalai Lama's long life.
    \140\ Tibetan Centre for Human Rights and Democracy (Online), ``One 
Shot Dead and Another in Critical Condition in Drango Protest,'' 24 
March 08. According to the report, security officials killed one person 
and critically wounded another when they fired indiscriminately on 
about 200 protesters shouting slogans calling for independence and the 
Dalai Lama's long life as they marched toward township offices.
    \141\ ``Chinese Police Fire on Tibetan Protesters, Death Toll 
Unknown,'' Radio Free Asia (Online), 4 April 08; Tibetan Centre for 
Human Rights and Democracy (Online), ``At Least Eight Shot Dead in 
Tongkor Monastery in Kardze,'' 5 April 08. According to TCHRD, security 
forces opened fire on and killed as many as 15 Tibetans, including 
monks of Tongkor Monastery. A monastic protest supported by local 
villagers developed after monks refused to cooperate with officials 
conducting ``patriotic education,'' and the officials responded by 
detaining an elderly monk.
    \142\ ``Tibetans Wounded in Sichuan Protest,'' Radio Free Asia 
(Online), 5 April 08; ``Troops Settle Down in China's Restive 
Sichuan,'' Radio Free Asia (Online), 5 April 08. Ordinary Tibetans 
joined monks of Nyatso Monastery in a peaceful procession to protest 
the deaths of Tibetans killed during recent protests. Security forces 
opened fire on the protesters at crossroads when officials allowed 
monks to continue, but not the ordinary Tibetans, who began to chant 
slogans calling for the Dalai Lama's long life and objecting to 
Tibetans' lack of freedom.
    \143\ ``Dalai Lama Says Will Quit if Violence Out Of Control,'' 
Reuters, reprinted in New York Times (Online), 18 March 08. The Dalai 
Lama said, ``If things become out of control then my only option is to 
completely resign. . . . Please help stop violence from Chinese side 
and also from Tibetan side.''
    \144\ Office of His Holiness the Dalai Lama (Online), ``Statement 
of His Holiness the Dalai Lama to All Tibetans,'' 6 April 08. ``I want 
to reiterate and appeal once again to Tibetans to practice non-violence 
and not waver from this path, however serious the situation might be.''
    \145\ For example, China's state-run media reported that security 
forces in Aba county fired on and wounded four Tibetan protesters on 
March 16. TCHRD reported that security forces fired on and killed at 
least 23 Tibetans in the Aba protest. Xinhua characterized the incident 
as a ``riot''; TCHRD described it as a ``peaceful protest.'' ``Police: 
Four Rioters Wounded Sunday in Aba of SW China,'' Xinhua (Online), 20 
March 08. Police fired on and wounded four rioters ``out of self 
defense,'' a police official said. Tibetans ``destroyed 15 police 
vehicles and more than 20 office facilities,'' according to the report. 
Tibetan Centre for Human Rights and Democracy, ``Middle School Student 
Shot Dead in Ngaba County.'' TCHRD reports the death of ``[a]t least 23 
people'' and injuries to ``scores'' of protesters during ``the peaceful 
demonstration.''
    \146\ State Council Information Office, ``Ministry of Public 
Security Holds News Conference To Brief the Press on the Latest 
Situation of Cracking Cases of 14 March Incident and Make Public the 
Names of Victims,'' 1 April 08 (Open Source Center, 2 April 08); ``Baby 
Burned to Death in Lhasa Riot Fire,'' China Daily (Online), 24 March 
08. ``At least 18 civilians and one police officer have been confirmed 
killed in the unrest in Lhasa, which also saw 382 injured.''
    \147\ International Campaign for Tibet (Online), ``Tibet at a 
Turning Point: The Spring Uprising and China's New Crackdown,'' 5 
August 08, 17, 54. According to the report, on March 14 in Lhasa 
``Chinese shops were burnt, and Chinese people were beaten severely and 
killed.'' ``Transcript: James Miles Interview on Tibet, CNN (Online), 
20 March 08. Miles witnessed the March 14 Lhasa riot and told CNN, 
``What I saw was calculated targeted violence against an ethnic group, 
or I should say two ethnic groups, primarily ethnic Han Chinese living 
in Lhasa, but also members of the Muslim Hui minority in Lhasa.'' 
Miles, who did not witness lethal violence, said, ``But I can do no 
more really on the basis of what I saw then say there was a probability 
that some ethnic Chinese were killed in this violence, and also a 
probability that some Tibetans, Tibetan rioters themselves were killed 
by members of the security forces.''
    \148\ The largest number of political detentions of Tibetans 
reported internationally as the result of a distinct sequence of 
political events that took place during the period of the current 
Chinese Constitution and Criminal Law, and before the cascade of 
Tibetan protests that began on March 10, 2008, resulted from the Lhasa 
protests of March 5 to 7, 1989. The Commission's Political Prisoner 
Database contains information on fewer than 200 cases of Tibetan 
political prisoners whose imprisonment may be linked to the March 1989 
political events. The Tibet Information Network reported that at least 
1,000 Tibetans were detained in connection with the incident. (Tibet 
Information Network, ``A Struggle of Blood and Fire: The Imposition of 
Martial Law in 1989 and the Lhasa Uprising in 1959,'' 25 February 99.)
    \149\ The current Constitution of the People's Republic of China is 
the fourth. The National People's Congress passed the current 
Constitution on December 4, 1982; it was most recently amended on March 
14, 2004.
    \150\ The National People's Congress passed the Criminal Law on 
July 1, 1979; it was most recently amended on June 29, 2006.
    \151\ The figures reported below (953, 362, 2,204, 8, 432, 94, and 
381) total 4,434 persons who surrendered to security officials or were 
detained by them during the period March 14 to 19 in the nine county-
level areas named in the reports: Lhasa, Linzhou, Aba, Xiahe, Maqu, 
Luqu, Zhuoni, Hezuo, and Diebu. ``953 Suspects in Lhasa Riots 
Detained,'' Xinhua (Online), 9 April 08. TAR government Chairman Jampa 
Phuntsog told reporters that police had detained ``953 people who were 
suspected of participating in the March 14 violence in Lhasa,'' and 
that another 362 persons ``delivered themselves to the law 
enforcement.'' ``Media Tour in Gansu Interrupted, Resumes Soon,'' 
Xinhua (Online), 9 April 08. Acting head of the Gannan TAP government 
told reporters that 2,204 persons (including 519 monks) had surrendered 
to police in connection with riots in the prefecture, and that police 
had ``formally arrested eight people suspected of participating in the 
riots and put another 432, including 170 monks, in temporary custody.'' 
The report said, ``From March 14 to 19, assaults, vandalism, looting 
and arson occurred in the Xiahe, Maqu, Luqu, [Zhuoni], Hezuo and Diebu 
areas of Gannan. . . .'' ``94 Criminal Suspects in Linzhou County 
Surrender Themselves to Justice,'' Tibet Daily, reprinted in China 
Tibet News, 19 March 08 (Open Source Center, 19 March 08). ``Awed by 
the powerful legal and policy offensives, 94 criminal suspects in 
Linzhou County who were involved in serious incidents of beating, 
smashing, looting, and burning surrendered themselves to justice by 
2400 hours on 17 March.'' ``381 Rioters in Aba County Surrender to 
Police,'' Xinhua, reprinted in People's Daily (Online), 25 March 08. 
``A total of 381 people involved in the riots in Aba county of Sichuan 
Province have surrendered themselves to the police as of Monday [March 
17] noon . . . . Law enforcement authorities . . . issued a notice . . 
. urging those who had taken part in the riots on March 16 to submit 
themselves within ten days.''
    \152\ ``953 Suspects in Lhasa Riots Detained,'' Xinhua; ``Media 
Tour in Gansu Interrupted, Resumes Soon,'' Xinhua.
    \153\ ``42 Rioters Sentenced to Prison,'' China Daily (Online), 21 
June 08.
    \154\ Ibid.
    \155\ ``Officials Report Release of More Than 3,000 of the More 
Than 4,400 Detained Tibetan `Rioters' '' Congressional-Executive 
Commission on China (Online), 9 July 08.
    \156\ ``953 Suspects in Lhasa Riots Detained,'' Xinhua (Online), 9 
April 08.
    \157\ ``Media Tour in Gansu Interrupted, Resumes Soon,'' Xinhua 
(Online), 9 April 08.
    \158\ ``94 Criminal Suspects in Linzhou County Surrender Themselves 
to Justice,'' Tibet Daily, reprinted in China Tibet News, 19 March 08 
(Open Source Center, 19 March 08).
    \159\ ``381 Rioters in Aba County Surrender to Police,'' Xinhua, 
reprinted in People's Daily, 25 March 08.
    \160\ ``42 Rioters Sentenced to Prison,'' China Daily (Online), 21 
June 08.
    \161\ ``Lhasa City People's Procuratorate Gives Permission To 
Arrest the First Suspect Who Held Up a Reactionary Flag,'' China Tibet 
News, 25 March 08 (Open Source Center, 27 March 08). At least 13 monks 
of a group of 15 monks apprehended while protesting near Lhasa's 
Jokhang Temple were charged with unlawful assembly. A 14th monk may 
have been charged with separatism for displaying a Tibetan flag.
    \162\ ``Judgments Pronounced Publicly on Some Defendants Involved 
in Lhasa's `14 March' Incident,'' Xinhua, 29 April 08 (Open Source 
Center, 30 April 08). ``Total jailed over Lhasa violence rises to 30,'' 
Xinhua (Online), 29 April 08. Three defendants were sentenced to life 
imprisonment; the rest received sentences to fixed term imprisonment 
ranging from 3 to 20 years. Monk Pasang, whom authorities accused of 
leading a group of 10 persons (including 5 monks) in Duilongdeqing 
county ``to destroy the local government office, smash or burn down 11 
shops and rob their valuables, and attack policemen on duty,'' received 
a life sentence. Two of the monks who ``followed'' Pasang were 
sentenced to 20 years in prison; the other three received 15-year 
sentences.
    \163\ Ibid.
    \164\ ``Tibet Confident on Security During Olympic Torch Relay,'' 
Xinhua (Online), 21 June 08. The article does not name the court (``the 
local court'') or provide details about any of the cases.
    \165\ Ibid.
    \166\ ``List of Appointments and Removals by the Tibet Autonomous 
Regional People's Congress Standing Committee,'' China Tibet News, 30 
March 08 (Open Source Center, 30 March 08). Although it is not clear 
whether or not the reshuffle was linked to the large number of protest- 
and riot-related cases, all of the appointments were to the Rikaze 
(Shigatse) and Shannan (Lhoka) prefectural procuratorates and courts, 
the two locations most easily and quickly reached from Lhasa. It is 
also possible that the transfers were part of a five-yearly reshuffle 
coordinated with central government changes.
    \167\ ``No Death Penalty Handed Down So Far Over Lhasa Violence,'' 
Xinhua (Online), 11 July 08. The report provided information based on 
statements by TAR government Executive Chairman Pema Trinley (Palma 
Trily, Baima Chilie).
    \168\ Ibid.
    \169\ Tibetan Centre for Human Rights and Democracy, ``Provisional 
List of Known Tibetan Arrestees--Updated on 25 April 2008.''
    \170\ Tibetan Centre for Human Rights and Democracy (Online), 
``Olympics and Tibet Under a Cloud of Repression,'' 7 August 08; 
``Latest Casualty Figures in Tibet,'' Tibetan Government-in-Exile.
    \171\ ``Tibetan Monks Still Held in Qinghai,'' Radio Free Asia 
(Online), 28 August 08. ``The remaining 57 monks from outlying areas 
were said to have been taken from smaller Lhasa monasteries.'' (The 
report did not specify the location of the ``outlying areas.'')
    \172\ Ibid. Monks from Tibetan areas in Sichuan province (``Kham'') 
``are still being held . . . in Golmud'' (Ge'ermu city, a principal 
city in Qinghai, located on the Qinghai-Tibet railway). ``The number of 
those still in detention [in Golmud] cannot be independently 
confirmed.''
    \173\ Ibid. RFA described the source of the information as ``an 
authoritative source who spoke on condition of anonymity.'' (The report 
did not name any of the monks and provided information of the specific 
location of relatively few.)
    \174\ Ibid. The source told RFA, ``On April 10 in the afternoon, 
security forces detained 550 monks from Drepung monastery, took them to 
the Nyethang Military School, and detained them on the school campus.'' 
[Nyethang (Nedang) is a township located in Qushui (Chushur) county, 
adjacent to Lhasa city.] ``Then, on the night of April 14, a huge 
contingent of Chinese security forces arrived at Sera monastery and 
took away about 400 monks and detained them at a military prison in 
Tsal Gungthang.'' [Tsal Gungthang is a township under the 
administration of Lhasa city.] (Other published reports have referred 
to detentions of substantial numbers of monks from Drepung and Sera 
monasteries on or about those dates.)
    \175\ CECC, 2005 Annual Report, 83. Officials had already been 
intensifying the ``patriotic education'' program in Tibetan monastic 
institutions since 2005.
    \176\ ``In Tibetan Monasteries, the Heavy Hand of the Party,'' 
Washington Post (Online), 3 June 08.
    \177\ ``Successfully Handling the Work of Maintaining Social 
Stability in All Aspects in a Comprehensive, Deepgoing, and Down-to-
Earth Manner,'' Tibet Daily, reprinted in China Tibet News, 3 April 08 
(Open Source Center, 06 April 08).
    \178\ ``Lhasa's Education System Makes Constant Efforts To Deepen 
Education in Patriotism,'' Xinhua, 17 July 08 (Open Source Center, 18 
August 08). ``A total of 3,691 core instructors were specially assigned 
and properly trained, and 1,057 lecture sessions were held in the 
course of the drive, attended by 179,476 people. In addition, 219 
people took to the floor to tell their story to 94,708 listeners in 193 
sessions, and 265 and 718 sessions were held respectively to greet the 
Beijing Olympics and denounce the criminal conduct of the Dalai 
separatist clique. Furthermore, 2,533 oath-taking sessions were held 
for participants to pledge themselves to safeguard the motherland's 
unification, oppose ethnic separatism . . . [ellipsis as published].''
    \179\ Campaigns were not limited to Party propaganda on religion, 
but also included legal, economic, and historical themes emphasizing 
the well-being of the Tibetan people under the Communist Party and the 
Chinese government. See, e.g., ``China's Tibetan Affairs Expert Says 
There Is a Need To Pay Attention to Educating Young Monks of Tibetan 
Buddhism,'' Xinhua, 2 April 08 (Open Source Center, 3 April 08); 
``Qiang Wei Stresses the Importance of Resolutely and Unswervingly 
Struggling Against Separatism, Safeguarding Stability, and Promoting 
Unity,'' Qinghai Daily, 29 March 08 (Open Source Center, 1 April 08); 
``While Conducting Investigation and Studies in Gannan Prefecture, Liu 
Lijun Stresses Need to Effectively Carry Out in a Down-to-Earth Manner 
Work on Propaganda and Education in Legal Knowledge at Monasteries of 
Tibetan Buddhism,'' Gansu Daily, 4 April 08 (Open Source Center, 26 
April 08).
    \180\ ``Hongyuan Begins `Maintaining Stable Thinking Among the 
Masses' Educational Campaign,'' Sichuan News Net, 27 March 08 (Open 
Source Center, 27 March 08). OSC summarizes an article on political 
education in Hongyuan (Kakhog, or Marthang) county in Aba prefecture 
(where non-violent protests were reported). ``Qiang Wei Stresses the 
Importance of Resolutely and Unswervingly Struggling Against 
Separatism, Safeguarding Stability, and Promoting Unity,'' Qinghai 
Daily. The Qinghai Party Secretary called for stepping up political 
education in Huangnan (Malho) TAP (where non-violent protests were 
reported). ``While Conducting Investigation and Studies in Gannan 
Prefecture, Liu Lijun Stresses Need to Effectively Carry Out in a Down-
to-Earth Manner Work on Propaganda and Education in Legal Knowledge at 
Monasteries of Tibetan Buddhism,'' Gansu Daily. A senior Gansu Party 
official called for propaganda campaigns and tighter control of 
monasteries in Gannan TAP (where non-violent protests and rioting were 
reported.)
    \181\ See, e.g., ``A Briefing Meeting on the Work of Safeguarding 
Stability in Haibei Tibetan Autonomous Prefecture Is Held in Xihai Town 
on 28 March,'' Qinghai Daily, 31 March 08 (Open Source Center, 2 April 
08). Senior Party officials in Haibei (Tsojang) TAP (where no protests 
were reported) detailed efforts to step up political indoctrination.
    \182\ See, e.g., Tibetan Centre for Human Rights and Democracy 
(Online), ``12 Monks of Dingri Shelkar Choedhe Monastery Arrested for 
Opposing the `Patriotic Re-education' Campaign,'' 31 May 08; 
International Campaign for Tibet (Online), ``More Than 80 Nuns Detained 
After Peaceful Protests Continue in Kham,'' 30 May 08; Tibetan Centre 
for Human Rights and Democracy (Online), ``China Arrests 55 Nuns of 
Pang-ri Nunnery for Protesting,'' 17 May 08; Tibetan Centre for Human 
Rights and Democracy (Online), ``China Arrests 16 monks for Defying 
`Patriotic Re-education,' '' 15 May 08; Tibetan Centre for Human Rights 
and Democracy (Online), ``Monks of Drepung Monastery Detained During 
Patriotic Education Campaign,'' 14 April 08.
    \183\ ``Abbots, Lamas Refuse To Denounce Dalai Lama,'' Phayul 
(Online), 30 March 08. Officials in Shiqu (Sershul) county, Ganzi TAP, 
convened a meeting of senior Tibetan Buddhist figures from the county's 
43 monasteries to launch a patriotic education campaign. The officials 
said that the Dalai Lama and the Tibetan government-in-exile had 
masterminded the protests across the Tibetan area of China, and told 
the monastic representatives to provide critical statements about the 
protests and to launch signature campaigns criticizing the protests. 
``China Steps Up Crackdown in Tibet,'' Radio Free Asia (Online), 17 
April 08. Officials told (apparently senior) Tibetan Buddhist monks 
attending an April 12 meeting in Kangding, the capital of Ganzi TAP, 
that, among other things, monks and nuns in the prefecture should 
denounce the Dalai Lama as a separatist and state that the Dalai Lama 
and Tibetan government-in-exile were responsible for the ``unrest'' in 
Tibetan areas. RFA cited as the source a monk in India who cited monks 
who attended the meeting. ``Tibet Update (3) April 15 - 27,'' China 
Digital Times (Online), last visited 19 June 08. The report refers to 
an emergency meeting in Ganzi TAP of the heads of all prefecture's 
monasteries and of various work units. All the attendees were told to 
acknowledge that the protest incidents were masterminded by the Dalai 
clique.
    \184\ ``Update for Friday, 4 April 2008,'' Tibetan Government-in-
Exile (Online), 4 April 08. Work teams conducting patriotic education 
pressured 200 monks at Bathang Choede Monastery in Batang county, Ganzi 
TAP, to sign statements supporting the Chinese government position that 
the Dalai Lama was responsible for inciting the Tibetan protests. All 
of the monks refused. Officials detained five monks, including the 
abbot. ``Updates on Tibet, 19 April 2008,'' Tibetan Government-in-Exile 
(Online), 19 April 08. Officials summoned villagers to meetings in 
several locations in Yajiang (Nyagchukha) county, Ganzi TAP, and told 
them to sign a statement saying that the Dalai Lama had instigated the 
recent unrest. Some villagers walked out of such meetings.
    \185\ International Campaign for Tibet (Online), ``Mass Detentions 
of Monks, Suicides and Despair as Enforced Condemnation of Dalai Lama 
Provokes Dissent,'' 29 April 08. The article provides photographic 
images of defaced images of the Dalai Lama at Kirti Monastery in Aba 
prefecture. ``Tibet Update (3) April 15 - 27,'' China Digital Times. 
The report describes an April 17 search of Rongbo Gonchen Monastery in 
Huangnan (Malho) TAP: ``Next they searched the living quarters of the 
monks, confiscated the Dalai Lama's photos and DVDs. They also 
arbitrarily destroy[ed] articles, and stole the monks' possessions.''
    \186\ ``Chinese Police Fire on Tibetan Protesters, Death Toll 
Unknown,'' Radio Free Asia; Tibetan Centre for Human Rights and 
Democracy, ``At Least Eight Shot Dead in Tongkor Monastery in Kardze.''
    \187\ See, e.g., Tibetan Centre for Human Rights and Democracy, 
``12 Monks of Dingri Shelkar Choedhe Monastery Arrested for Opposing 
the `Patriotic Re-education' Campaign.'' ``[C]ell phones were known to 
have been confiscated to curb the report of the incident from leaking 
to the outside world. . . .'' ``Update on Tibet, 9 May 2008,'' Tibetan 
Government-in-Exile (Online), 9 May 08. Referring to police raid on 
Ratoe Monastery, near Lhasa: ``. . . mobile phones belonging to 70 
monks' were confiscated. In addition, the telephone of the monastery 
was confiscated too.'' ``Tibet Update (2),'' China Digital Times 
(Online), last visited 15 June 08. Referring to Tongkor Monastery in 
Ganzi county: ``Each room in the monks' living quarters was searched 
and all cell phones were confiscated.'' International Campaign for 
Tibet (Online), ``Monks reveal concerns about Chinese allegations on 
weapons caches, views on Olympics,'' 16 April 08. Referring to Tibetan 
protest areas generally: ``[A]uthorities have confiscated cellphones 
and computers, turned off cellular transmission facilities or cut 
landlines, and interfered with internet access, according to various 
reports received by ICT.'' ``2,000 Tibetans Defy Sichuan Crackdown as 
China Admits Shooting,'' Radio Free Asia (Online), 20 March 08. 
Referring to Lhasa: ``Another man said many people had been arrested 
but it was hard to know exactly who, because the authorities had cut 
off the mobile phone network.'' ``Police Seize Weapons, Ammunition in 
Southwestern China Monastery,'' Xinhua (Online), 30 March 08. Referring 
to objects, including weapons, seized at Kirti Monastery in Aba county: 
``. . . communication facilities including satellite phones, receivers 
for overseas TV channels, fax machines and computers were 
confiscated.''
    \188\ Tibetan Centre for Human Rights and Democracy, ``12 Monks of 
Dingri Shelkar Choedhe Monastery Arrested for Opposing the `Patriotic 
Re-education' Campaign.'' ``[T]he monks were even known to have been 
threaten[ed] with dire consequences if found `leaking' the information 
to the outside world.'' ``Update on Tibet, May 31, 2008,'' Tibetan 
Government-in-Exile (Online), 31 May 08. Referring to Ramoche Monastery 
in Lhasa: ``[A]ll three monks . . . were again arrested by the 
concerned local Chinese officials on 26 May for keeping in contact with 
outsiders through phone calls. They are suspected of sharing 
information with the outside world.'' Tibetan Centre for Human Rights 
and Democracy (Online), ``A Former Chief of Rong Gonchen Monastery in 
Critical Condition,'' 18 April 08. Referring to Rongbo Gonchen 
Monastery in Tongren county: ``The Chinese authorities have issued 
terse warning to the monks about leaking the information to the outside 
world following the severe crackdown by the Chinese authorities.''
    \189\ ``Tibet To Reopen to Tourists on May 1,'' Xinhua, reprinted 
in China Daily (Online), 3 April 08.
    \190\ Ministry of Foreign Affairs, ``Transcript of Regular News 
Conference by PRC Foreign Ministry on 12 June 2008, Moderated by 
Spokesman Qin Gang,'' 12 June 08 (Open Source Center, 12 June 08). 
After MFA Spokesman Qin Gang stated that the Chinese government is 
``not to blame'' for the closure of Tibetan areas to journalists 
following the `` `3.14' serious violent criminal incidents,'' a 
journalist asked, ``Who is to blame, then? '' Qin replied, ``Do you 
really have no idea? Of course, it is the Dalai clique.''
    \191\ ``Full Transcript of Interview with the Dalai Lama,'' 
Financial Times (Online), 25 May 08. ``Then stop, inside Tibet, 
arresting and torture. This must stop. And then they should bring 
proper medical facilities. And most important, international media 
should be allowed there, should go there, and look, investigate, so the 
picture becomes clear.''
    \192\ PRC Criminal Law, enacted 1 July 79, amended 14 March 97, 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, art. 103 (``organize, plot or carry out the scheme of 
splitting the State or undermining unity of the country''; ``incites 
others to split the State or undermine unity of the country'').
    \193\ Dui Hua Foundation (Online), ``Sentence Reductions for 
Political Prisoners More Than Previously Thought,'' 17 June 08.
    \194\ Ibid.
    \195\ CECC, 2005 Annual Report, 11 October 05, 112. Jigme Gyatso 
was sentenced in 1996 to 15 years' imprisonment for counterrevolution. 
Chinese officials told a UN Working Group on Arbitrary Detention 
(UNWGAD) delegation in September 2004 that he was guilty of ``planning 
to found an illegal organization and seeking to divide the country and 
damage its unity.'' Another UNWGAD opinion on the case found that 
``there is nothing to indicate that the `illegal organization' . . . 
ever advocated violence, war, national, racial, or religious hatred, 
and that Jigme Gyatso was ``merely exercising the right to freedom of 
peaceful assembly with others in order to express opinions.''
    \196\ Ibid., 111-112. Choeying Khedrub, a monk of Tsanden Monastery 
in the TAR, was sentenced in 2000 to life imprisonment for his role in 
a group of men who allegedly printed pro-independence leaflets. 
According to information that the Chinese government provided to the 
United Nations Working Group on Arbitrary Detention (UNWGAD), he was 
found guilty of endangering state security and ``supporting splittist 
activities of the Dalai clique.'' The UNWGAD reports that the Chinese 
response ``mentions no evidence in support of the charges, or if they 
used violence in their activities,'' and finds that the government 
``appears'' to have misused the charge of endangering state security.
    \197\ CECC, 2007 Annual Report, 10 October 07, 210. Bangri Chogtrul 
(Jigme Tenzin Nyima), who lived as a householder in Lhasa and managed a 
children's home along with his wife, was convicted of inciting 
splittism and sentenced to life imprisonment in a closed court in Lhasa 
in September 2000. ``Lhasa Court Commutes Life Sentence for Children's 
Home Director to 19 Years,'' CECC China Human Rights and Rule of Law 
Update, April 2006, 16. The sentencing document lists evidence against 
Bangri Chogtrul that includes meeting the Dalai Lama, accepting a 
donation for the home from a foundation in India, and a business 
relationship with a Tibetan contractor who lowered a Chinese flag in 
Lhasa in 1999 and tried to blow himself up. Jigme Tenzin Nyima 
acknowledged meeting the Dalai Lama, accepting the contribution, and 
knowing the contractor, but he denied the charges against him and 
rejected the court's portrayal of events.
    \198\ Measures for Dealing Strictly With Rebellious Monasteries and 
Individual Monks and Nuns [hereinafter Ganzi Measures], Order from the 
People's Government of Ganzi Tibetan Autonomous Prefecture, No. 2, 
issued 28 June 08, translated from Tibetan language in International 
Campaign for Tibet (Online), ``New Measures Reveal Government Plan To 
Purge Monasteries and Restrict Buddhist Practice,'' 30 July 08.
    \199\ The Commission does not have relevant information about 
Sichuan province or Ganzi TAP regulations. See, however, Tibet 
Autonomous Region Implementing Measures for the ``Regulation on 
Religious Affairs'' [hereinafter TAR 2006 Measures], issued by the 
Standing Committee of the Tibet Autonomous Region People's Government 
on September 19, 2006, art. 16. ``To rebuild, expand, or repair venues 
for religious activities, a petition for examination and approval is 
made to the prefectural (city) administrative office (people's 
government) religious affairs department in the locality, after 
obtaining the consent of the county-level people's government religious 
affairs department in the locality. . . .''
    \200\ Monks or nuns who administer a monastery or nunnery form the 
Democratic Management Committee (DMC). DMC members must implement Party 
policies on religion and ensure that monks and nuns obey government 
regulations on religious practice.
    \201\ The Commission does not have relevant information about 
Sichuan province or Ganzi TAP regulations. See, however, Tibet 
Autonomous Region Implementing Measures for the ``Regulation on 
Religious Affairs'' [hereinafter TAR 2006 Measures], issued by the 
Standing Committee of the Tibet Autonomous Region People's Government 
on September 19, 2006, arts. 19, 29. Article 19 stipulates: ``Venues 
for religious activities recruit religious personnel, and handle 
procedures for their confirmation and for placing [the matter] on 
record on the basis of [the venues'] ability for self-cultivation, 
management ability, and the economic capacity of their religious 
adherents, as well as on the basis of the relevant provisions of the 
state and autonomous region.'' Article 29 states that ``religious 
personnel'' may not ``engage in professional religious activities'' 
until their status as a religious professional is confirmed by a 
``religious organization'' (a state-controlled Buddhist association) 
and reported for the record to the religious affairs bureau of a local 
government at county-level or above. (Based on Commission staff 
analysis, a monastery or nunnery is unlikely to succeed in increasing 
the number of resident monks or nuns unless the local government 
endorses the increase.)
    \202\ Regulation on Religious Affairs (RRA) [Zongjiao shiwu 
tiaoli], issued 30 November 04, translated on the Web site of China 
Elections and Governance, art. 13. Government officials at the county, 
prefectural, and provincial levels are involved in the approval process 
for establishing a ``site for religious activity.''
    \203\ State Administration for Religious Affairs, Measures on the 
Management of the Reincarnation of Living Buddhas in Tibetan Buddhism 
[Zangchuan fojiao huofo zhuanshi guanli banfa], issued 13 July 07, 
arts. 3-5.

                                 <all>

</pre></body></html>
